U.S. DEPARTMENT OF COMMERCE
        Office of Inspector General




                Semiannual Report
                  to the Congress


                           September 30, 1997
         Under the provisions of the Inspector General Act of 1978, Public Law 95-452, as amended, we report
twice yearly to the Congress on the activities of the Office of Inspector General. We describe the major problems,
abuses, and deficiencies identified during audits, inspections, and investigations, along with our recommendations
for corrective action.
         Requests for this document, in this form or in an alternative format to meet the needs of persons with
disabilities, should be addressed to Office of Inspector General, U.S. Department of Commerce, Room 7099C
HCHB, 14th & Constitution Ave., NW, Washington, DC 20230. Telephone requesters can call (202) 482-0231
or TDD (202) 482-5897. An electronic version can be obtained via the OIG’s Internet Home Page at
http://www.oig.doc.gov.
                         Message for the Secretary



October 31, 1997


The Honorable William M. Daley
Secretary of Commerce
Washington, DC 20230

Mr. Secretary:

         This report provides a comprehensive overview of Office of Inspector General activities for the second half of
fiscal year 1997. Section 5 of the Inspector General Act requires that you transmit this report, with any comments
you may wish to add, to the appropriate congressional committees within 30 days.

       I appreciate the opportunity you have provided me, through participation in the Department’s executive
management team, to work more closely with senior bureau officials in identifying and addressing the Department’s
management issues. I also want to express my appreciation of your leadership in specifically addressing the 10 areas
of management and program weaknesses identified by our office in cooperation with the General Accounting Office.

        However, the Department still faces significant management and programmatic challenges that require
intensive oversight and attention. Initiatives such as the 2000 decennial census, the National Weather Service
modernization, the disestablishment of the NOAA Corps, the proposal to convert PTO to a performance-based
organization, and the modernization of the Commerce Administrative Management System, to name a few, are
approaching critical decision points.

        Just as your personal leadership has been crucial in addressing the Department’s management issues, so too
will your continued oversight be essential in ultimately resolving them. I urge you to stay apprised of the problems,
for much remains to be done.

                                                  Sincerely,




                                                  Francis D. DeGeorge
                                                  Inspector General

Enclosure




September 1997                           Commerce IG Semiannual Report                                              i
                             Table of Contents


     MESSAGE FOR THE CONGRESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Foreword . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
          Major Areas of Concern . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                  PTO Management and Program Issues . . . . . . . . . . . . . . . . . . . . . 2
                  NOAA Fleet and NOAA Corps . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                  2000 Decennial Census . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                  Advanced Technology Program . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                  NWS Modernization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                  Facilities Planning and Laboratory Consolidation . . . . . . . . . . . . 10
                  Financial Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                  NTIS Efforts to Become a Performance-Based Organization . . . . 14
          Resolution and Follow-Up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

     DEPARTMENT OF COMMERCE ORGANIZATION CHART . . . . . . . . . . . . . 17

     AGENCY OVERVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         18
          Bureau of Export Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           18
          Economic Development Administration . . . . . . . . . . . . . . . . . . . . . . . . . .                 20
          Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . .               24
                   Bureau of Economic Analysis
                   Bureau of the Census
          International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            27
          Minority Business Development Agency . . . . . . . . . . . . . . . . . . . . . . . . .                  30
          National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . .                     33
          National Telecommunications and Information Administration . . . . . . . . .                            44
          Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         46
          Technology Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         48
                   National Institute of Standards and Technology
                   National Technical Information Service
          Departmental Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           55

     REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

     STATISTICAL HIGHLIGHTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

     TABLES AND APPENDIXES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67

     DEFINITIONS OF OIG REVIEWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80

     GLOSSARY OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81

     OIG ORGANIZATION CHART AND POINTS OF CONTACT (Inside Back Cover)



ii                Commerce IG Semiannual Report                                                September 1997
                        Message for the Congress


                                               FOREWORD
        In approaching the 20th anniversary of the Inspector General Act of 1978, we remain committed to our
objectives of detecting and preventing waste, fraud, and abuse, and promoting economy, efficiency, and effectiveness
in the Department of Commerce’s programs and operations. In recent years, our efforts have been aided by the
passage of key management reform legislation, including the Chief Financial Officers Act of 1990, the Government
Performance and Results Act of 1993, the Government Management Reform Act of 1994, and the Federal Financial
Management Improvement Act of 1996. This body of legislation has established a sound framework for strengthening
managerial accountability, ensuring the effective use of resources, and enhancing program performance.

         Major ongoing initiatives remain the focus of our efforts to improve the Department’s management and
administration. We still have concerns about the difficulties in designing and deploying the Advanced Weather
Interactive Processing System, the key integrating element of the National Weather Service’s modernization program;
the completion of planning and implementation of the 2000 decennial census; NOAA’s response to congressional
guidance concerning the NOAA Corps and fleet; and the increasing costs and slow pace of implementation of the
Commerce Administrative Management System.

         We are expanding our program reviews of U.S. and Foreign Commercial Service posts to better respond to
long-standing congressional direction to examine the Department’s international trade programs and comply with the
Omnibus Trade and Competitiveness Act of 1988. In this report, we discuss the results of our reviews of US&FCS
posts in Germany, Poland, Thailand, Indonesia, and Malaysia. An ambitious schedule of additional reviews is
planned for the upcoming reporting period.

         We are also increasing our attention to PTO management and program issues. This report discusses the
results of our review of PTO’s patent quality review process. In addition, we are reviewing PTO’s transition to a new
systems development and maintenance contract for the Automated Patent System, its cost accounting and fee
restructuring effort, its implementation of the Patent Application Management System, and its plans to consolidate
operations at a new facility to be constructed in northern Virginia.

        We will continue to keep the Department and the Congress fully informed of our activities.




                                                 Francis D. DeGeorge
                                                 Inspector General




September 1997                           Commerce IG Semiannual Report                                               1
Message for the Congress




                                 MAJOR AREAS OF CONCERN
                             This section highlights what we consider to be the major areas of
                     concern for the Department. By addressing these areas, the Department and
                     the Congress can improve program management, eliminate serious operational
                     problems, decrease vulnerability to fraud and waste, and achieve significant
                     cost savings.

                     PTO Management and Program Issues
                              As the Congress considers legislation to establish the Patent and
                     Trademark Office as a performance-based organization, we have serious
                     concerns about many aspects of the agency’s operations. There is stagnant
                     productivity and a growing patent application backlog. During the past year,
                     patent pendency exceeded 20 months for the first time in nine years. Although
                     PTO has invested heavily in automation and business process reengineering to
                     improve program operations, the benefits of these costly investments have thus
                     far been disappointing. The agency is currently making major decisions about
                     its future space requirements, which could involve moving the entire organi-
                     zation in the near future. Finally, proposed legislation would convert the
                     agency to a government corporation.

                               During this reporting period, we completed a review of PTO’s Office
                     of Patent Quality Review (OPQR) and its efforts to reengineer its review
                     process (see page 46). OPQR’s purpose is to monitor and evaluate the quality
                     of the patent examination process by reviewing selected allowed patents. The
                     results of these quality reviews are essential in identifying operational
                     deficiencies and suggesting actions to correct them. In recent years, in
                     anticipation of implementing the reengineered patent quality process, OPQR
                     staffing has been cut almost in half, which has reduced its ability to report
                     statistically accurate information about quality to PTO management.

                              However, implementation has been delayed by problems encountered
                     during the pilot test, uncertainties surrounding FY 1998 funding, and
                     negotiations with employee unions. PTO prematurely reduced OPQR’s staff
                     before the reengineered process was complete or demonstrated to be an
                     effective quality control mechanism, preventing OPQR from reviewing patents
                     at the same rate as before. Because of the importance of maintaining public
                     confidence in the quality of issued patents, we recommended that OPQR
                     staffing be restored to its former level so that sampling can be resumed at the
                     previous rate. PTO management has concurred.



2                      Commerce IG Semiannual Report                              September 1997
                                                                             Message for the Congress




Automation Efforts

        We are currently conducting an inspection of PTO’s transition to a
new systems development and maintenance contract for the Automated
Patent System. PTO has replaced its long-standing prime contract for the
system with two new system development and maintenance contracts, valued
at $511 million over the next eight years. The purpose of our inspection is to
determine PTO’s preparedness to transfer system activities to the new
contractors.

         In addition, we are assessing PTO’s progress in developing and
implementing the Patent Application Management system (PAM). Part of the
Automated Patent System plan, PAM is one of the few components of the
system that is expected to improve the productivity of the patent application
process. Yet implementation of PAM has been repeatedly postponed. As the
backlog of patent applications continues to build, the need for PAM becomes
greater. PTO should find a way to implement PAM, or it will suffer from
additional backlog growth and cost increases.

Consolidation of Headquarters Offices

         We are reviewing PTO’s efforts to consolidate its operations at a
new design-to-lease, 2-million-square-foot facility to be constructed and
ready for occupancy by 2001. Lease payments will total approximately
$57 million for 20 years. We believe that there has been inadequate planning
for completing the interior design of the facility, which subjects the lease
development effort to increased cost and schedule risks. Further, PTO does
not have a written agreement with the General Services Administration
describing their respective roles and responsibilities under this project. Since
this will be one of the largest federal space procurements in the next decade,
a written description of the agencies’ relative responsibilities and how the
project will be managed would seem to be essential.

NOAA Fleet and NOAA Corps
Decommissioning the Fleet

        We remain concerned about NOAA’s plans to continue investing
millions of dollars in an in-house fleet without demonstrating that this best
meets its programmatic needs, fully exploring alternatives, or accounting for
how the fleet would be operated. We are also concerned that the Department
is supporting NOAA’s planned investments without requiring NOAA to take
these actions. NOAA officials have consistently stated that the agency’s ships

September 1997                             Commerce IG Semiannual Report                            3
Message for the Congress




                     provide unique services and are cost-competitive with non-NOAA vessels. We
                     have consistently disagreed. The issue needs to be addressed.

                              We, the Congress, OMB, GAO, and others have repeatedly urged
                     NOAA to explore alternatives to an agency designed, owned, and operated
                     fleet for acquiring marine data. In our 1996 program evaluation report on
                     NOAA’s 1995 fleet operations and modernization plan (see March 1996
                     issue, page 43), we recommended that NOAA terminate its modernization
                     plan; cease investing in its ships; begin immediately to decommission, sell, or
                     transfer them; and contract for the required ship services. Unfortunately,
                     despite some claims of progress, NOAA has yet to seriously articulate its
                     needs for ship services to the private sector, academia, and other government
                     ship operators that can provide more cost-effective and modern platforms, as
                     has been requested by the Congress.

                     Eliminating the Corps

                             In May 1997, the Department submitted to OMB a legislative
                     proposal and transition plan for eliminating the NOAA Corps. The version of
                     the proposed legislation that has been sent to the Congress is a significant
                     improvement over earlier drafts, and many of our initial concerns have been
                     addressed. However, one important issue remains unresolved: the maximum
                     number of officers that should be converted to civil service positions.

                             In our recent report on our evaluation of the transition plan (see
                     page 33), we recommended that NOAA:

                     !        Convert only 100 line-office billets to civilian positions. This
                              represents the approximate number of positions that can be paid for
                              from the line organizations’ budgets without using funds from ship-
                              support appropriations.

                     !        Eliminate aircraft activities not directly related to NOAA’s mission
                              and limit the number of officer conversions for ship- and aircraft-
                              related activities to 70 positions. Outsourcing options appear to be
                              readily available and cost effective. Creating no more than 70 civil
                              service positions for ship and aircraft services will ensure sufficient
                              staffing to maintain essential in-house services while providing an
                              incentive to use more cost-effective outsourcing options.




4                        Commerce IG Semiannual Report                               September 1997
                                                                              Message for the Congress




!       Provide military retirement benefits to NOAA Corps officers with at
        least 15 years of service and convert only non-retiring officers. We
        believe that NOAA should implement the transition plan in the
        following manner: (1) retire all 120 officers with at least 15 years of
        service, (2) identify the 170 most critical positions in the line organi-
        zations and program support activities and fill as many of these as
        possible with non-retiring officers, (3) determine which of the
        170 positions cannot be filled immediately by non-retiring officers,
        and (4) hire qualified temporary personnel for any position identified
        in the previous step until one of the non-retiring officers can be
        trained.

2000 Decennial Census
         Since the last semiannual report, the OIG has continued to work
closely with senior departmental and Census Bureau officials to strengthen
decennial planning and management. Despite progress in addressing a number
of issues related to the 2000 decennial census, many remain unresolved, most
notably congressional concerns about sampling.

         Over the past several months, the Census Bureau has implemented a
number of planning and management improvements, including (1) creating an
integration team to ensure that the progress and design of individual com-
ponents are compatible with the overall decennial plan, and (2) developing a
decision path that shows schedules, milestones, and interdependencies among
the design components. However, while the decision path is operational, it is
not complete, as modifications are still being made. In addition, the bureau has
recently taken steps to improve its decennial census cost model. It has
reviewed the accuracy of the information in the tracking system and is making
needed improvements. Although these are major improvements, the greatest
benefit will come from linking these management tools so that the bureau can
assess the cost impact of schedule and milestone changes. With this
information, the bureau can determine how resources should be allocated to
help ensure that design elements are completed on schedule.

         The Census Bureau has also moved to fill key vacancies, in particular
the positions of Deputy Director, Principal Associate Director, Chief
Financial Officer, and Associate Director for Information Technology. Each
of these senior officials plays an important role in supporting leadership in
financial and management systems, two areas that have presented significant
challenges.




September 1997                             Commerce IG Semiannual Report                             5
Message for the Congress




                               Although the bureau has recently made progress in determining the
                     statistical design for the 2000 decennial census, a number of interrelated, time-
                     sensitive tasks remain to be completed. Bureau officials and outside
                     observers have agreed that it is essential for the Dress Rehearsal, scheduled
                     for the spring of 1998, to be a true “dry run” of the census, so that they can
                     fully evaluate census plans. To allow sufficient time for subsequent
                     implementation and operations activities, the statistical design must be
                     completed by December 1997. In short, the bureau has an extremely limited
                     time to resolve the remaining statistical questions related to the design,
                     including developing procedures for identifying duplicate census forms,
                     measuring error in the population estimates, and improving the quality of
                     small area data.

                               The bureau also needs to increase its credibility with the Congress. A
                     series of miscommunications involving sampling plans has exacerbated
                     concerns that some Members of Congress and other stakeholders have had
                     about the use of sampling. To address this major communications problem,
                     the bureau must provide detailed, consistent, coherent documentation in its
                     plans to the Congress. While a recent report to the Congress contained errors,
                     its level of detail and accompanying research papers represent a step in the
                     right direction. The bureau’s recent decision to convene a panel of independent
                     experts to review its sampling plans is another positive step. However, the
                     bureau must move quickly to provide the information that the panel needs to
                     complete its review. The best way for the bureau to confirm the validity of its
                     sampling approach is to ensure that only methodologies identical or very
                     similar to those chosen for the 2000 census are part of the Dress Rehearsal.

                              The 2000 decennial census targeted questionnaire program may not be
                     necessary and may compromise the bureau’s ability to achieve its goals of
                     increasing accuracy and containing costs (see page 24). The 1995 Census Test
                     results indicated that the program’s components (targeted mailings of
                     questionnaires in English and Spanish and targeting areas with blank census
                     forms in multiple languages) did not increase response rates for the intended
                     populations. Giving people multiple opportunities to respond generally
                     increases and complicates field operations and data processing and can affect
                     accuracy. The bureau has agreed to design a targeted questionnaire program
                     that considers cost, schedule, performance, and public perception constraints
                     and trade-offs, and to communicate the program’s scope and limitations to
                     local partners. Increased targeting may not be necessary because the bureau
                     has already made sampling an integral part of its 2000 design to compensate
                     for ineffective coverage improvement programs in past censuses.




6                      Commerce IG Semiannual Report                                September 1997
                                                                           Message for the Congress




         We have been conducting an inspection of the headquarters
information processing systems for the 2000 decennial census. Headquarters
processing systems are important because they support key operations
throughout the decennial census. We found that software is not being
developed under a well-defined process and that, as a result, the bureau is
lacking assurance that the work is proceeding efficiently and that the software
will perform its intended functions correctly. Census has confirmed our
findings and has moved to strengthen its software processes.

         We also found that estimates of software development schedules and
resources for the Dress Rehearsal and the 2000 census are not realistic.
Rather than reflecting the time required for development, the bureau’s
estimates represent the time available. Without estimates of how long tasks
will take, management cannot determine the staffing levels necessary to
support software development or whether software development schedules are
achievable.

         Finally, we found that requirements for headquarters processing are
incomplete and likely to be late. The Dress Rehearsal and the census will rely
on statistical processes that have not been used in previous censuses.
Therefore, decisions concerning the details of these processes must be
documented in requirements specifications for software that must still be
developed.

         However, statistical research is still being conducted, and important
decisions concerning the details of some of these processes have not yet been
made; until these decisions are made, important requirements specifications
cannot be prepared. As a result, some software developers plan to begin
development without associated requirements specifications or with
specifications that are likely to change. This increases the risk that costly,
time-consuming modifications will be needed at a later date to accommodate
changes in requirements. We believe that the bureau should focus now on
defining and refining requirements, rather than risk having to modify
prematurely designed and developed software.

        We have discussed our concerns and preliminary observations with
bureau managers, who have begun to address them. Our formal report will be
issued during the next semiannual period.

        We continue to recommend that decennial management be identified
as a material weakness in the Department’s FY 1997 report to the Congress
under the Federal Managers’ Financial Integrity Act.



September 1997                            Commerce IG Semiannual Report                           7
Message for the Congress




                     Advanced Technology Program
                              NIST’s Advanced Technology Program (ATP) is a cost-sharing
                     program designed to accelerate the development and commercialization of
                     promising high-risk technologies by American businesses by providing funds
                     to individual companies and joint ventures for research and development. We
                     have identified two major ATP-related issues that need management attention:
                     (1) joint venture participants’ use of commercial prices in calculating the cost
                     of projects, and (2) NIST’s handling of incremental funding. The Secretary
                     has directed that our recommendations be implemented, and NIST has taken
                     actions, described below, to strengthen the management of ATP.

                     Use of Commercial Prices

                              More than 100 joint venture ATP awards involving over 500 com-
                     panies have been issued, with total estimated costs exceeding $2 billion. Our
                     audit of two ATP joint venture awards with a total of 19 participants and
                     $64.3 million in federal and nonfederal funds has identified questioned costs of
                     $10.7 million, generally involving software companies that provided licenses,
                     maintenance and support, or other items from a commercial product line for
                     use on a project. Some joint venture participants have not complied with
                     federal rules that prohibit financial assistance award recipients from being
                     reimbursed for previously invested development costs, corporate interest
                     expenses, or profit—which are significant ingredients of software commercial
                     prices (see page 50). A number of participants that we have audited strongly
                     disagree with our views on this matter.

                              The Department and NIST have moved to correct this problem for
                     future ATP awards. We worked with NIST grants and program officials on a
                     proposed rule, published in the Federal Register on September 17, 1997, to
                     address the valuation of transfers of goods, including computer software, and
                     services between separately owned joint venture members.

                     Incremental Funding

                              Although ATP projects generally require several years to complete,
                     funding has been provided on an incremental basis—one year at a time.
                     Funding for each subsequent year is intended to be contingent on the
                     availability of funds and the grantee’s satisfactory performance. To be eligible
                     for multi-year funding, the project must be severable into annual increments of
                     work that represent tangible accomplishments.




8                      Commerce IG Semiannual Report                               September 1997
                                                                            Message for the Congress




         As a result of our audit work, NIST has agreed to review open
projects with the objective of either (1) funding the remaining balance in the
current year if the work is not severable, or (2) reconfirming that each
prospective year’s work can be discretely identified and thus funded on an
annual basis. NIST has also agreed to ensure that all multi-year funded
projects contain clearly defined quantitative technical milestones that are
severable into annual increments of meaningful work so that, in the event that
prospective funding is not provided, work already funded has significance (see
page 48).

NWS Modernization
        We continue to review the National Weather Service’s $4.5 billion
program to modernize its observing and information systems and to reduce
more than 250 field offices to 119. During this period, we focused on follow-
up monitoring of past inspection recommendations related to the Advanced
Weather Interactive Processing System (AWIPS). We have also provided
analyses and recommendations in response to specific questions about AWIPS
from the Department and the Congress.

         In October 1996, Secretary Kantor directed NOAA to delay Key
Decision Point-IV, the milestone that would allow nationwide AWIPS
deployment to begin, until January 1, 1997, or until full testing of NOAA’s
new design (that is, the use of WFO-Advanced integrated with selected
AWIPS components—see March 1997 issue, page 9) was complete and the
results were fully evaluated, whichever was later. In February 1997, Secretary
Daley decided to allow NOAA to procure and deploy only 21 AWIPS
systems, with an option to procure 18 additional systems beginning in July
1997 if appropriate development and deployment progress had been
demonstrated.

         In July 1997, in response to departmental concerns, we advised the
Department of our view that NOAA had not met the condition of demon-
strating appropriate progress and that the option for 18 additional systems
should not yet be exercised. Although NOAA had decided to convert to WFO-
Advanced in August 1996, it still had not developed a detailed description of
the technical work needed to complete AWIPS under the new WFO-Advanced
design or developed a definitive schedule and cost estimate. In addition, it had
failed to identify the organizational responsibilities and staffing required to
complete the work, including the responsibilities and staffing of the National
Weather Service, the Forecast Systems Laboratory, the AWIPS Acquisition
Office, the prime contractor, and NOAA support contractors.



September 1997                            Commerce IG Semiannual Report                            9
Message for the Congress




                              Without detailed plans for completing AWIPS or the results of the
                     operational test and evaluation of the new AWIPS design, we concluded that
                     neither NOAA nor the Department will be in a position to certify that the
                     system can be completed within the legislatively mandated $550 million cap.
                     The Secretary has directed that the decision on exercising the option to deploy
                     the additional systems should not be made until the results of operational
                     testing and evaluation of AWIPS are known—estimated to be in November
                     1997.

                     Facilities Planning and Laboratory Consolidation
                     NIST’s Capital Improvements Facilities Program

                              In our March 1997 issue (see page 61), we reported on the results of
                     our review of NIST’s Capital Improvements Facilities Program (CIFP). Since
                     that time, the Department has, at our recommendation, improved its oversight
                     of CIFP. The Department has taken a more active role in determining if CIFP
                     budget requests are reasonable and justified, and the Department’s Office of
                     Budget, Management, and Information has coordinated a successful effort to
                     obtain updated and reliable information on NIST’s facilities needs and plans.

                             Moreover, NIST has modified its previous plan. NIST submitted to
                     the Department a draft, five-year facilities plan (FY 1999-FY 2003), with an
                     estimated cost of $630 million. While an improvement over the previous plan,
                     in our opinion the current NIST plan still has problems, several of which we
                     discuss below.

                     !        Plan fails to adequately justify all construction and renovation
                              costs. First, NIST’s plan fails to adequately justify its $80 million
                              renovation cost estimates for each of two general purpose laboratory
                              buildings in Gaithersburg, Maryland. Second, by leasing and building
                              two large facilities in Gaithersburg that were not in its original plans,
                              NIST has greatly increased its square footage, without developing
                              corresponding plans to terminate the use of older, less useful space.
                              NIST should take into account the likelihood of restricted budgets
                              when making and changing facilities plans. We believe that the
                              Department must scrutinize these and future plans to ensure that all
                              construction and renovation costs are fully justified.




10                       Commerce IG Semiannual Report                               September 1997
                                                                           Message for the Congress




!       Proposed advanced laboratory is not needed in Boulder. NIST’s
        current draft plan includes a $21 million “clean room” in Boulder,
        Colorado, which, in our view, is not needed. We believe that all
        requirements for advanced laboratory and clean room space being
        considered for Boulder should be incorporated into the advanced
        laboratory facilities in Gaithersburg. We also recommend that NIST
        thoroughly reevaluate renovation proposals and the size of the
        proposed Central Utility Plant in Boulder in light of projected future
        operations there. In addition, we have previously recommended that
        the Department conduct a study to determine the costs and benefits of
        full, as well as partial, consolidation of Boulder programs and
        operations in Gaithersburg over the long-term, not only the five-year
        study period. A recent study by an independent contractor concluded
        that consolidation may be cost effective. Our observations—based on
        over two years of review—support the need for a study of long-term
        consolidation options and their benefits and costs.

Proposed NOAA Operations and Research Center

         We are reviewing NOAA’s proposal for the design and construction
of a $97 million research center to be located at the National Aeronautics and
Space Administration’s Goddard Space Flight Center in Greenbelt, Maryland.
The proposed new 350,000-square-foot facility would house 1,200 NOAA
employees involved in satellite and weather service operations. Based on our
work to date, we do not believe the facility should be funded until NOAA has
determined that (1) it is absolutely necessary to consolidate employees at a
single location, and (2) a new facility needs to be constructed.

NMFS Laboratory Structure

         We recently issued a draft report discussing the results of our
performance audit of streamlining and reconfiguration opportunities within the
National Marine Fisheries Service (NMFS) laboratory network (see
page 39). We identified several opportunities for NMFS to streamline its field
structure, including closing some laboratories and transferring their functions
to other, underutilized facilities. We are currently assessing information
provided by NMFS in its response to our draft report.




September 1997                           Commerce IG Semiannual Report                            11
Message for the Congress




                     Financial Management
                     Financial Statements Audits

                             The OIG is responsible for financial statements audits of the
                     Department of Commerce in accordance with the provisions of the Chief
                     Financial Officers Act of 1990, as amended by the Government Management
                     Reform Act of 1994.

                             During the prior reporting period, financial statements audits were
                     completed of the Department’s Consolidated Financial Statements, as well as
                     of each bureau’s statements (see March 1997 issue, page 69). Unqualified
                     opinions were received by BEA/ESA, MBDA, NIST, NTIA, PTO, TA, and
                     the Department’s Working Capital Fund. Census, NTIS, and the Depart-
                     ment’s Salaries and Expense Fund received qualified opinions on their
                     Statement of Financial Position with disclaimers on their Statement of
                     Operations and Changes in Net Position. Disclaimers of opinion were received
                     by BXA, EDA, ITA, and NOAA, and on the Department’s Consolidated
                     Statements. Much work is still needed to achieve unqualified opinions on all of
                     the Department’s financial statements.

                             Providing financial leadership from the top is essential, and Chief
                     Financial Officer (CFO) positions are critical to the future success of the
                     Department and its bureaus. We commend the Department for filling its CFO
                     position, and we encourage it to continue assisting EDA, ITA, NIST, and
                     PTO in permanently filling theirs. No further delays should be tolerated.

                     Commerce Administrative Management System

                              CAMS is intended to provide the Department with an effective
                     internal control environment that meets the CFO Act requirement for a single,
                     integrated financial management system. However, the Department continues
                     to face significant challenges and experience considerable delays in deploying
                     CAMS components. The Department’s latest CAMS cost estimate has
                     increased to $86 million: $62 million (versus the original FY 1992 estimate of
                     $41 million), plus an additional $24 million projected for in-house CAMS
                     staff resources.

                               Due to schedule delays and rising costs, the Department has revised
                     its strategic plan and approach to CAMS implementation. Resources will now
                     be focused on completing a pilot site at the Census Bureau to assess the
                     system’s viability before implementing it at three other bureaus, as previously
                     planned. The pilot site is expected to provide Census, in time for the 2000

12                     Commerce IG Semiannual Report                               September 1997
                                                                             Message for the Congress




decennial census, with an updated accounting system, which it is hoped the
Department will be able to transfer to its other bureaus.

         We reiterate that delays will most likely extend CAMS deployment
dates for bureaus other than Census into 2000 and beyond. CAMS needs
close, top-level departmental oversight. Increased costs, extended deadlines,
and short time frames to accomplish CAMS implementation Department-wide
continue to be serious concerns of this office.

Year 2000 Problem

         Most of the Department’s accounting and feeder systems use two-
digit year dates that will become inaccurate beyond December 31, 1999.
Unless this problem is corrected, there is serious risk that the Department’s
mission-critical computer applications will cease functioning properly.

         The Department estimates it will cost more than $75 million to correct
the year 2000 problem in all Commerce systems. Yet few of the bureaus seem
to have adequate resources dedicated to working on year 2000 conversion
projects. Staff are generally being asked to fit year 2000 work into their
existing schedules. Only in rare cases are individuals spending more than
20 percent of their time on year 2000 projects. Given other responsibilities of
information technology departments and user organizations, it would appear
unlikely that there will be sufficient time to perform all required tasks. It also
appears that the Department’s total cost estimate does not fully consider the
magnitude of the testing phase, which is predicted to be the most expensive,
time-consuming part of the year 2000 effort.

        Originally, several of the Department’s year 2000 concerns were to be
resolved by replacing noncompliant systems with CAMS. However, it now
appears likely that CAMS will not be a significant factor in the bureau’s
compliance efforts.

         Bureaus have not analyzed the impact that business functions will
encounter as the deadline draws near and employees must work on year 2000
projects on a full-time basis. In addition, contingency plans have not been
prepared to address what will be done if changes are incomplete and systems
ultimately falter after 1999.

          Given the short time remaining, the Department must focus on the
year 2000 problem and dramatically increase the resources dedicated to it.
Failure to do so will result in widespread system failures and risk Commerce’s
ability to conduct business in the new millennium.


September 1997                             Commerce IG Semiannual Report                            13
Message for the Congress




                     NTIS Efforts to Become a
                     Performance-Based Organization
                             The National Performance Review identified the National Technical
                     Information Service as a candidate for conversion to a performance-based
                     organization (PBO). The Department is drafting legislation to effect this
                     conversion.

                             Two key prerequisites for becoming a PBO are (1) a clearly defined
                     mission, and (2) the ability to generate sufficient revenues to support business
                     operations. We have serious doubts that NTIS currently meets either of these
                     prerequisites.

                              In a recently completed financial analysis of NTIS, we concluded that
                     the agency will not meet its mandate to be self-supporting unless revenues
                     increase and/or operating costs decrease (see page 52). NTIS has suffered a
                     net loss in two of the last three years, including an estimated loss of $3 million
                     in FY 1997.

                              In our last semiannual report, we discussed the results of our program
                     evaluation of NTIS’s management and operations, which concluded that the
                     agency had either undertaken or contemplated undertaking activities that were
                     potentially outside of its statutory mission and capabilities (see March 1997
                     issue, page 58). As currently drafted, the bill that would convert NTIS to a
                     PBO places virtually no restrictions on the kinds of information-related
                     activities that the agency would be authorized to undertake, activities that
                     could put it in direct competition with the private sector.

                             We believe that the Department should not proceed with legislation to
                     convert NTIS to a PBO until its mission has been clearly defined and the
                     agency can demonstrate its financial self-sufficiency.




14                     Commerce IG Semiannual Report                                 September 1997
                                                                               Message for the Congress




           RESOLUTION AND FOLLOW-UP
         The Inspector General Act Amendments of 1988 require this report to
present those audits issued before the beginning of the reporting period
(April 1, 1997) for which no management decision has been made by the end
of the period (September 30, 1997). The following table presents the overall
status.

 Type of Audit Report                                         Unresolved

 Performance                                                        3

 Financial Assistance                                               3

 Financial Statements                                               1

 Preaward Contract                                                  1

 Postaward Contract                                                 0

          The three performance audits involve NOAA programs. The first
audit report recommended that tsunami warning programs be consolidated.
NOAA did not agree with the recommendation; the OIG recently suggested an
alternate approach to NWS as a basis for resolution. The second report
offered the recommendation that NMFS’s vessel buyout program be canceled
and resulting funds be transferred to other federal programs that will better
meet the needs of the fishing community. NMFS did not accept the recommen-
dation; the OIG has suggested an alternate approach and is awaiting NMFS’s
response. The third report recommended eliminating a salmon fishing permit
buyback program and reallocating funds to habitat restoration and data
collection programs. NOAA did not agree with the recommendation. Details
of all three audits are presented on pages 41 and 42.

         There has been an increase in the number of unresolved financial
assistance audit reports from one to three. One financial assistance audit
report involves a NOAA award and remains unresolved for more than one
year, pending action by the cognizant audit agency. The other two audits
involve EDA and MBDA awards. Audit resolution proposals have been
submitted; however, OIG-agency discussions were not able to resolve the
reports on a timely basis. Additional details are presented on pages 23, 32,
and 43.




September 1997                            Commerce IG Semiannual Report                               15
Message for the Congress




                             There is one unresolved financial statements audit involving Census’
                     Financial Statements for FY 1996. The OIG has received the audit action plan
                     and is awaiting a legal opinion from the Department’s General Counsel before
                     responding to the Census proposal. Details are presented on page 26.

                             Discussion of the unresolved preaward contract audit can be found on
                     page 65.

                              Department Administrative Order 213-5, “Audit Resolution and
                     Follow-up,” provides procedures for management to request a modification to
                     an approved audit action plan, or for a financial assistance recipient to appeal
                     an audit resolution determination letter. The following table summarizes the
                     activity during the reporting period.

                      Report Category                             Modifications          Appeals

                      Actions pending (April 1, 1997)                     0                  9

                      Submissions                                         0                  2

                      Decisions                                           0                  5

                      Actions pending (September 30, 1997)                0                  6

                             The six appeals pending final decisions by the Department include one
                     NIST, three EDA, and two MBDA financial assistance audits. Four of these
                     appeals (two EDA and two MBDA) have been in process for over a year, and
                     two for as long as two years.




16                     Commerce IG Semiannual Report                                September 1997
                     Department of Commerce
                           Organization Chart


                                                 Office of the
                                                  Secretary



      Bureau of                       International             National Oceanic                       Patent and
       Export                            Trade                  and Atmospheric                        Trademark
    Administration                   Administration              Administration                          Office



                    Economics and                                                      Technology
                      Statistics                                                      Administration
                    Administration



                                                                    National Institute of         National Technical
        Bureau of                   Bureau of
                                                                     Standards and                Information Service
       the Census               Economic Analysis
                                                                       Technology




                      Economic                          Minority                         National
                    Development                        Business                    Telecommunications
                    Administration                    Development                    and Information
                                                        Agency                        Administration




September 1997                           Commerce IG Semiannual Report                                                  17
                                           Bureau of
                                           Export Administration

                                       Export Licensing Process Needs
   The Bureau of Export
Administration is primarily            Further Information Sharing and Screening
responsible for the administration
and enforcement of the nation’s                 The National Defense Authorization Act of FY 1996 required the
system for controlling exports of      Inspectors General of the Departments of Commerce and State to each report,
sensitive dual-use goods and           in 1996 and 1997, on the effectiveness of their respective agencies’ export
technologies. Under the Export         licensing screening process during the preceding year. BXA is responsible for
Administration Act and regulations,    controlling the export of dual-use goods and technologies (those with civilian
BXA’s major functions include          and military applications) by screening and approving export licenses and
formulating and implementing
                                       ensuring compliance.
export control policy; processing
export license applications;
conducting various policy,                       BXA’s watchlist is a compilation of three screening databases used to
technical, and economic analyses;      identify license applications that have the strongest potential for the misuse or
promulgating regulations;              diversion of items or technologies. The watchlist includes more than 38,000
conducting industry outreach; and      parties, types of items and technologies, projects of concern, and other
enforcing the act and regulations.     categories that BXA has identified as potential problems. Another important
   Export Administration               resource used in the export licensing process is end-use checks, which consist
implements U.S. export control and     of both pre-license checks and post-shipment verifications. Pre-license checks
nonproliferation laws and policies     are conducted before application approval to obtain information about a
through export licensing,
                                       foreign end user; post-shipment verifications determine whether the correct
commodity classifications, and
advisory opinions; technical,
                                       party received the licensed item or technology.
economic, foreign availability, and
policy analyses; promulgation of                The OIG’s report on BXA’s export license screening process for
regulations; and industry outreach.    FY 1995 contained several recommendations for strengthening BXA’s
It also conducts various defense       screening process, including the need to improve the accuracy of its export
industry base activities.              license watchlist data by arranging for the electronic receipt of pertinent
   Export Enforcement participates     computer databases and lists from the Departments of State and the Treasury
in reviews of export license           (see September 1996 issue, page 16). BXA has recently installed a new
applications and conducts criminal     computer system that, once tested to ensure accuracy, will enable it to store
and administrative investigations of
                                       electronic lists from these agencies.
the export control portions of the
Export Administration Act and
regulations. It also administers and          During our review of FY 1996 activities, we also reviewed the status
enforces the antiboycott provisions    of BXA’s implementation of recommendations from our first report. We
of the act and regulations.            made the following observations:

                                               The export licensing watchlist generally contains all relevant
                                       information. BXA has been effectively managing and updating its screening
                                       database. However, it did not include some names provided by Treasury
                                       during FY 1996 because of data entry errors. Once BXA has tested the new
                                       computer system, it can incorporate the Treasury and State information
                                       electronically. We are also concerned about the State Department’s lack of
                                       cooperation in sharing its watchlist information with BXA. We



18                                       Commerce IG Semiannual Report                                September 1997
                                                                  Bureau of Export Administration




recommended that BXA develop a plan with State for transferring
electronically formatted information more regularly.

          Screening all parties against the TECS database could enhance
the license application screening process. Maintained by the U.S. Customs
Service, the Treasury Enforcement Communications System (TECS) was
created to provide multi-agency access to a common database of enforcement
data supplied by the participating federal agencies. Currently, Customs
receives data only on applications on which final action has been taken, not
pending applications. Screening every applicant and consignee against TECS
during the initial phases of the licensing process would give licensing and
enforcement authorities ample warning of any potential Customs concerns.
We recommended that BXA and Customs amend their current memorandum
of understanding to provide for the transfer of pending license application
information to Customs for screening against TECS for at least a one-year
trial period.

         The quality and utility of end-use checks should be improved.
Although the overseas posts were generally in compliance with BXA’s
guidelines for conducting the checks, the posts need to improve their processes
in several ways. For example, the posts do not always conduct end-use checks
in a timely manner and, contrary to BXA’s guidance, they often allow
US&FCS foreign service nationals to conduct the checks. We recommended
that BXA communicate more with the posts about end-use checks, and work
with US&FCS to develop policy guidance on whether and how foreign service
nationals can be used in conducting such checks.

         Sharing of end-use and enforcement information should be
improved. Access to additional enforcement information, such as end-use
check histories and limited descriptions of enforcement personnel’s interest in
specific applications, can improve cooperation within BXA and between BXA
and referral agencies, and make the license process more efficient. We made
several recommendations in this area, including some basic changes to the
computer database to improve sharing of end-use check information.

        In responding to our draft report, BXA agreed with most of our
findings and has either taken, or plans to take, steps that satisfy several
recommendations. However, BXA disagreed with our recommendation to
screen all parties to new export license applications against Customs’ TECS
database. We reaffirmed our recommendation in the final report and will work
with BXA to resolve our disagreement. (Office of Inspections and Program
Evaluations: IPE-9524)



September 1997                           Commerce IG Semiannual Report                         19
                                               Economic Development
                                               Administration

                                           West Virginia Agency Made State Loans from
   The Economic Development
Administration was established
                                           EDA Funds to Conceal Excess Cash Reserves
under the Public Works and
Economic Development Act of                        A West Virginia state agency created to provide assistance to
1965 to generate new jobs, help            businesses has among its lending programs one state and two EDA revolving
protect existing jobs, and stimulate       loan funds (RLFs). The agency’s $75.5 million equity as of June 30, 1995,
commercial and industrial growth           included about $5.4 million from the two EDA RLFs, both of which are
in economically distressed areas of        administered under the guidelines for the state RLF.
the United States. EDA does this by
providing grants to public and                      One EDA RLF was established through a $4.7 million Sudden and
private nonprofit organizations in
                                           Severe Economic Dislocation grant awarded to the state agency in 1978. EDA
communities with problems that are
stifling economic growth; planning         required the agency to use the grant funds to make an initial, directed loan,
grants to states, cities, districts, and   with loan repayments to be used to capitalize an RLF for economic
Indian reservations; special               development loans to other businesses. The fund’s balance was about
economic adjustment assistance to          $8.5 million as of March 31, 1996. The second RLF originated in EDA’s
states and local governments with          1984 award to the agency of a $750,000 Long-Term Economic Deterioration
recent, severe problems or long-           grant, which had a $250,000 matching requirement. The agency used the grant
term economic deterioration;               funds to capitalize an RLF that provided businesses with smaller loans than
technical assistance to communities        were available under the other fund. This RLF’s balance was about $1.4 mil-
to build organizational capacity and       lion as of March 1996.
solve specific economic
development problems; and
research and evaluation grants to                   An OIG audit of the two EDA RLFs covering the period from April
increase knowledge about effective         1991 through March 1996 disclosed that the agency had made $4.6 million in
economic development tools.                state loans from the RLFs to conceal the existence of over $4 million in excess
                                           cash reserves. To offset this substitution of federal for state monies, the
                                           agency must transfer state monies to the EDA RLFs. These funds will then be
                                           either greatly overcapitalized or underutilized unless the agency takes strong
                                           remedial actions. We also found that the agency did not adequately document
                                           that loans were made to eligible borrowers, and made some loans at
                                           inappropriately low interest rates.

                                                    Among our recommendations were that EDA require the state agency
                                           to (1) use state monies to purchase the outstanding balances of the state loans
                                           made with EDA monies, (2) make EDA loans only after reaching the state
                                           revolving loan capacity, and (3) deposit future excess EDA cash reserves in an
                                           interest-bearing escrow account and pay a portion of the interest earned to the
                                           U.S. Treasury. In response to our draft report, the agency disagreed that it had
                                           concealed excess cash reserves and denied any responsibility for repurchasing
                                           the EDA loans; however, it did agree to implement some of our recommenda-
                                           tions. Nothing in the agency’s response convinced us to change our findings or
                                           recommendations. (Atlanta Regional Office of Audits: ATL-8969-7-0001)




20                                           Commerce IG Semiannual Report                               September 1997
                                                       Economic Development Administration




Uncompleted Public Works Project in Florida
Lacked Documentation of Actual Costs                                                       Economic
                                                                                          Development
                                                                                          Administration

         In 1993 EDA awarded a $2.5 million public works grant to a Florida
city to help it recover from the effects of Hurricane Andrew. EDA disbursed
only $115,000 under the award. The grant funds were to be used to renovate
                                                                                                              Program
part of a downtown building for use as an international trade exposition mart.     Program
                                                                                  Operations                Research &
                                                                                                             Evaluation
However, because of construction delays and operator financial problems, the
mart never opened, and the building owners terminated the lease agreement
with the city. The city requested that EDA terminate the award agreement for                    Finance &
                                                                                               Administration
convenience and reimburse the city for more than $1.5 million in costs. EDA
asked the OIG to audit the claimed costs.

         Our audit disclosed that the city had paid the contractor based on
percent-of-completion estimates, instead of actual cost documentation as
required by the grant. Under this unacceptable method, the city claimed about
$1 million in construction costs, which we questioned. Nevertheless, we
recognized that the city incurred construction costs that are reimbursable
under a termination for convenience, and we assisted and monitored the
parties’ efforts to negotiate a settlement.

         We questioned a total of about $1.4 million in construction costs,
consisting of the $1 million in unsupported costs and another $400,000 in
costs for asbestos removal that the building owner, not the city, is paying. We
recommended that in the absence of a settlement agreeable to us, EDA disal-
low more than $1.4 million in claimed costs, disburse about $20,000 to the
city, and deobligate the remaining grant funds, totaling over $2.3 million.

        The city responded to our report with a proposal to settle for an
additional $500,000 disbursement of EDA funds. Recognizing that the city
had incurred construction costs, EDA recommended accepting this as a fair
and reasonable offer, and we concurred. (Atlanta Regional Office of Audits:
ATL-9297-7-0001)

North Carolina Farmers’ Market Project:
Equipment Missing and Purpose Changed
         Between 1975 and 1979, EDA awarded three grants to a North
Carolina county to plan, design, and build a farmers’ market to serve seven
counties in North Carolina, Georgia, and Tennessee. The EDA award funds
totaled $800,000, which was matched by about $480,000 in county, state, and
other federal funds. All EDA grant funds have been disbursed. After the


September 1997                          Commerce IG Semiannual Report                                                     21
Economic Development Administration




                     market was built, the county delegated project management responsibility to a
                     separate market board of directors.

                              EDA requested an OIG audit to examine allegations that the county
                     was not using the project according to the grant terms and conditions. Specifi-
                     cally, the agency wanted to know how project facilities were being used, what
                     leases were in effect, and what income the county was receiving. The audit,
                     which covered the entire project period from 1975 through 1996, was im-
                     paired by the county’s poor control over the project and the failure of the
                     county and the market’s board to maintain adequate records on the project.

                             Our audit revealed that because of the lack of county control over
                     project management, more than $179,000 in equipment had been improperly
                     removed from the project site. Moreover, we found that the county had
                     changed the project’s purpose to a general use industrial park and leased the
                     property in a manner that frustrated the goal of expanding local employment.

                              We recommended that EDA require the county to repay to the U.S.
                     Treasury $111,000, the federal share of the missing project equipment;
                     establish certain controls over project management; and submit a compre-
                     hensive use plan for the project facilities. County officials generally agreed
                     with our findings and recommendations, but disagreed that the county was
                     liable for the value of the missing equipment. (Atlanta Regional Office of
                     Audits: ATL-9614-7-0001)

                     Update
                     Judgment. In the September 1994 issue (page 26), we reported the initiation
                     of a civil action in U.S. District Court for the Central District of California to
                     recover the assets of a revolving loan fund that had been capitalized with the
                     proceeds of an EDA grant. After the grant recipient filed for bankruptcy in
                     1986, a former bookkeeper improperly used RLF records to solicit and obtain
                     loan payments from several borrowers over a period of about five years. In
                     June 1997, a default judgment in the amount of $65,070 was entered against
                     the former employee; all funds recovered under the judgment will be returned
                     to EDA. (Denver Field Office of Investigations)




22                     Commerce IG Semiannual Report                                 September 1997
                                                     Economic Development Administration




Audit Reports Unresolved for Over Six Months
         An OIG financial assistance audit report, DEN-7037-7-0001 (see
March 1997 issue, page 25), found that a Texas Title IX grant recipient could
not support its project cost claims because it commingled federal and state
funds with local funds and used some of these funds for ineligible or non-
project-related purposes. As a result, we questioned more than $760,000 in
costs claimed against the EDA grant, and nearly $600,000 in costs claimed
against state funds. We also found that the grantee (1) misled the state in
applications for project funds, (2) made inappropriate and duplicative claims
of project costs, (3) entered into inappropriate and duplicative engineering
agreements, and (4) maintained inadequate accounting records.

       EDA did not agree with all of our recommendations, and we are
working with the bureau to resolve our disagreements.




September 1997                        Commerce IG Semiannual Report                  23
                                            Economics and
                                            Statistics Administration

                                       Expanded Census Targeted Questionnaire Effort
  The Economics and Statistics
Administration analyzes economic
                                       May Be Unnecessary and Counterproductive
developments, develops policy
options, and produces a major share             In the year 2000, the Bureau of the Census will be faced with its
of U.S. government economic and        greatest decennial challenge—to successfully enumerate increasing numbers
demographic statistics. The Chief      of hard-to-count people at an acceptable cost. The 1990 census was long,
Economist monitors and analyzes        expensive, and labor-intensive, yet census accuracy decreased, especially
economic developments and directs      among minorities. Bureau officials agreed with expert advisory panels that the
studies that have a bearing on the     highly labor-intensive enumeration techniques for non-response follow-up and
formulation of economic policy.        coverage improvement added in recent decades to increase census participa-
ESA has two principal agencies:        tion did not increase accuracy.
  Bureau of the Census. Census is
the country’s preeminent statistical
collection and dissemination
                                                Therefore, the bureau has incorporated statistical techniques, such as
agency. It publishes a wide variety    sampling and estimation, as an integral part of the 2000 decennial census
of statistical data about people and   design. In addition to using statistical methods, the bureau, in consultation
the economy of the nation,             with local officials, is planning to target areas for mailing joint English and
conducting approximately 200           Spanish questionnaire packages and distributing blank “Be Counted” ques-
annual surveys, in addition to the     tionnaires in English and over 30 other languages to help ensure a successful
decennial census of the U.S.           census.
population and the decennial census
of industry.                                    Based on an initial survey of the preparation of 2000 Census ques-
  Bureau of Economic Analysis.
                                       tionnaires, we decided to conduct an audit of the effects of two recent deci-
BEA’s goal is to provide a clear
picture of the U.S. economy by
                                       sions on the census design’s cost, schedule, performance, and public percep-
preparing, developing, and             tion: (1) expansion of the targeted program for mailing joint English and
interpreting the national income       Spanish questionnaire packages to include additional languages, and (2) exten-
and product accounts (summarized       sion of the “Be Counted” program through the end of the non-response follow-
by the gross domestic product) as      up process. Both programs, which we refer to jointly as the “targeted ques-
well as aggregate measures of          tionnaire program,” were still in the conceptual stage at the time of our
international, regional, and state     review.
economic activity.
                                                Our major observations and conclusions were as follows:

                                       !        Targeted questionnaire program may be unnecessary. Because the
                                                bureau has made sampling an integral part of its 2000 design, the
                                                targeted questionnaire program may not be necessary. Further, the
                                                1995 Census Test results indicated that the two program components
                                                did not increase response rates for the intended populations.

                                       !        Fully implementing the targeted questionnaire program could
                                                become counterproductive. Although many details of the targeted
                                                questionnaire program are not yet defined, an expansive scenario,
                                                involving many targeted language mailings and millions of Be
                                                Counted forms in up to 32 languages at thousands of sites, could

24                                         Commerce IG Semiannual Report                             September 1997
                                                     Economics and Statistics Administration




        compromise the bureau’s ability to achieve its goals of increasing
        accuracy and containing costs. Bureau managers do not anticipate
        extensive program implementation, but acknowledge that such an
        outcome is possible. According to decennial managers, the biggest
        risk in the census is the ability to complete follow-up of those house-
        holds that did not return a questionnaire in the limited time available
        before the large independent survey designed to locate and correct for
        those not counted. A delay in the start of this survey could compro-
        mise completion of the census by the legal deadline.

!       Emphasis and lack of details on targeted questionnaire partner-
        ship cast uncertainty on program cost. While program details for
        2000 are still pending, bureau managers have put significant effort
        into promoting the targeted questionnaire concept, which could result
        in local officials’ strongly advocating an expanded program to in-
        crease their population counts. Asked about the program’s cost-
        effectiveness, a senior bureau official stated that promoting partner-
        ships, not containing cost, was the deciding factor in expanding the
        program. He added that according to the current estimate, the cost of
        expanding languages should only modestly increase the total program
        cost. However, the current overall cost estimate is based on an incom-
        plete set of program cost components.

!       Whether planned or unplanned, cost growth seems likely. If the
        bureau continues to promote the targeted questionnaire program
        without stringent selection criteria, the program appears likely to grow
        in size and cost. A key question is whether the growth will occur
        early, and therefore be planned, or late, and be minimally controlled.
        For example, local officials may find narrow bureau criteria for
        targeting unacceptable during the local review of targeted areas
        scheduled for next year and push for an expanded program. Or the
        bureau may proceed with narrow criteria but, during the census,
        receive enormous pressure to expand the program from local officials
        concerned about response rates. Because bureau managers decided
        not to include cost-effectiveness as a fundamental criterion, program
        cost growth is likely.

         Our principal recommendations were that the bureau comprehen-
sively define the targeted questionnaire program, keeping in mind trade-offs
among cost, schedule, performance, and public perception, and discuss the
program details and justification with local partners as soon as possible. The
bureau agreed with our observations and recommendations. (Economics &
Statistics Audits Division: ESD-9610-7-0001)


September 1997                            Commerce IG Semiannual Report                   25
Economics and Statistics Administration




                       Audit Report Unresolved for Over Six Months
                       As of September 30, 1997, there was one OIG financial statements audit
                       report unresolved for more than six months: Bureau of the Census Financial
                       Statements for Fiscal Year 1996, FSC-8836-7-0001 (see March 1997 issue,
                       page 31). During the audit, the contractor certified public accounting firm
                       identified an internal control weakness related to inadequacies in the bureau’s
                       cost allocation system that will significantly change its costing and pricing
                       policy for reimbursable work. Census has proposed using the new allocation
                       system only for new reimbursement agreements. For agreements entered into
                       before FY 1997, price increases will be phased in over a two-year period. The
                       bureau plans to reduce the number of projects with a cost/price difference by
                       80 percent in FY 1998, and eliminate the balance in FY 1999.

                       Before agreeing to Census’ audit action plan, we have asked the Depart-
                       ment’s Office of General Counsel to review the plan in light of laws requiring
                       full cost recovery. We have also requested that the bureau provide a list of
                       agreements and dollar amounts that make up the projects that will have a
                       cost/price difference at the end of FY 1997. Based on the results of these
                       inquiries, we will respond to the audit action plan.




26                       Commerce IG Semiannual Report                               September 1997
                                            International
                                     Trade Administration

Effective Service Delivery, but Inefficient
                                                                                      The International Trade
Operations at Five US&FCS Overseas Posts                                           Administration is responsible for
                                                                                   most non-agricultural U.S. trade
         ITA’s U.S. and Foreign Commercial Service (US&FCS) is charged             issues and works with the Office of
with providing business firms with a base of export assistance support, from       the U.S. Trade Representative in
individual U.S. cities to specific foreign markets. A total of 138 foreign         coordinating U.S. trade policy.
commercial offices perform various overseas activities directed at improving       ITA has four principal units:
the trade position of the United States, including identifying trade or invest-       Market Access and
                                                                                   Compliance. MAC develops and
ment opportunities, finding potential representatives or agents, providing
                                                                                   implements international economic
business consultation to U.S. visitors at foreign posts, and preparing market      policies of a bilateral, multilateral,
research on a country’s “best prospects” industries.                               or regional nature. It promotes
                                                                                   trade, investment, and commercial
         The OIG performed inspections of five US&FCS overseas                     relations, and maintains
posts—Malaysia, Indonesia, Thailand, Germany, and Poland—and found                 comprehensive commercial and
them generally effective in delivering services to their customers. However, we    economic data on countries and
also found both postwide and post-specific inefficiencies in management and        regions of the world.
operations. We provided US&FCS officials with inspection reports for the              Trade Development. TD advises
five individual posts, as well as a broader analysis based on all the              on international trade and
                                                                                   investment policies pertaining to
inspections. The primary cross-cutting issues of concern were:
                                                                                   U.S. industrial sectors, carries out
                                                                                   programs to strengthen domestic
!       Lack of effective resource management by post officials. Several           export competitiveness, and
        posts were pursuing activities without adequate regard for their           promotes U.S. industry’s increased
        relative priority or payoff. Also, none of the posts had a time or         participation in international
        resource management system in place to reliably estimate the unit          markets.
        costs of various post products or services, or to determine how best to       Import Administration. IA
        allocate resources to maximize their effectiveness.                        defends American industry against
                                                                                   injurious and unfair trade practices
                                                                                   by administering the antidumping
!       Failure by regional directors to provide adequate oversight of
                                                                                   and countervailing duty laws of the
        posts. Some regional directors were failing to provide the necessary       United States, and enforcing other
        oversight and guidance to posts, and to hold the respective senior         trade laws and agreements
        commercial officer accountable for post management weaknesses.             negotiated to address such trade
                                                                                   practices.
!       Need for direct US&FCS involvement in the development and cost                U.S. & Foreign Commercial
        analysis of ICASS. The International Cooperative Administrative            Service. U.S.&FCS promotes the
        Support Services (ICASS), the new administrative cost system to            exports of U.S. companies and
        become effective in FY 1998, should give U.S. agencies more control        helps small and medium-size
        over the services they receive overseas by requiring them to pay costs     businesses market their goods and
                                                                                   services abroad. It has 98 domestic
        commensurate with those services. ITA is not planning further review
                                                                                   offices and 138 overseas posts in
        of ICASS until it has been in place for a full year. We believe that the   75 countries.
        potentially large savings to US&FCS, and the time it would take to
        implement alternative arrangements, justify US&FCS’s supporting
        local or regional cost comparisons by field representatives without


September 1997                            Commerce IG Semiannual Report                                               27
International Trade Administration




                                 waiting a year. US&FCS should consider all viable options, such as
                                 private sector services and continued participation in some or all of
                                 ICASS services.

                        !        Failure to comply with BXA’s export licensing regulations. BXA
                                 relies on US&FCS posts to perform pre-license checks and post-
                                 shipment verifications of certain export transactions. BXA requires
                                 that an American officer conduct the checks, but of the five posts,
                                 foreign service nationals were conducting the checks at three, and an
                                 American contractor was conducting the checks at a fourth.

                        !        Improper use of personal service contractors for post activities.
                                 Contractors at some posts were performing various prohibited
                                 activities, including supervising government employees; controlling
                                 money, property, and other valuable resources; and representing the
                                 U.S. government before foreign governments.

                                The report also noted inefficiencies in the areas of resource allocation,
                        performance evaluation systems, interagency coordination overseas, and
                        information technology. Recommendations were made to US&FCS officials to
                        remedy these organizational problems. US&FCS accepted many of our
                        recommendations, but has not clearly communicated to us how or whether the
                        balance of our recommendations will be addressed. (Office of Inspections and
                        Program Evaluations: IPE-9178, IPE-9284, IPE-9285, IPE-9286, IPE-9287,
                        and IPE-9288)

                        USTTA Funds Properly Spent and
                        Accounted for During Closeout
                                Established in 1961, the Department’s United States Travel and
                        Tourism Administration served as the U.S. government’s official national
                        tourism office, responsible for maximizing tourism’s contribution to the
                        nation’s economic goals of growth, stability, and job creation. In June 1996,
                        the Congress abolished USTTA, but authorized funding to transfer limited
                        tourism promotion functions to ITA. The OIG advised the Department on
                        USTTA closeout procedures and cost estimates.

                                 We later contracted with a certified public accounting firm to perform
                        a financial audit to estimate funds not needed to cover USTTA’s existing
                        obligations, detail the observed results of the audit, and outline remaining
                        tasks that need to be completed by the Department in closing out USTTA.
                        The firm recommended that the remaining tasks be assigned to the appropriate
                        Commerce offices and that a timetable be established for their completion.

28                          Commerce IG Semiannual Report                              September 1997
                                                               International Trade Administration




Tasks remaining involved such matters as funding sources and cash
reconciliation, overseas and domestic office balances, and personnel costs.

        The firm also found that (1) USTTA’s outstanding obligations and
future costs, as of September 30, 1996, contained accurate estimates and were
adequately supported; (2) expenditures incurred domestically by USTTA from
October 1, 1995, to March 31, 1997, were accurate; and (3) the rates of
expenditures incurred by overseas posts were comparable to rates in the
previous year. (Financial Statements Contract Audits Division: FSD-8711-7-
0001)

“Blueprint” Provided to Assist Agency
in Improving Its Financial Management
        The OIG’s audit of ITA’s FY 1996 financial statements found serious
problems requiring immediate corrective action (see March 1997 issue, page
34). The ITA Acting Under Secretary requested our assistance in developing a
blueprint for improving the agency’s financial management. After consulting
with the accounting firm that performed the audit, we provided ITA with steps
needed to improve its financial management.

          Among the more significant steps were: (1) recruit a Chief Financial
Officer, along with additional professional accounting staff; (2) develop a
staff of financial management personnel to improve operations at ITA
headquarters and overseas posts; and (3) establish a Financial Statements and
Reports Section, reporting to the CFO, to collect, analyze, record, and report
on ITA’s financial activity. The actions recommended in the blueprint, while
not all of the steps needed to improve ITA’s financial management, should
have an immediate impact in addressing major problems. (Financial
Statements Audits Division)

In Brief
Reprimand. A senior ITA official received a letter of reprimand as the result
of an OIG investigation, which found that she had violated federal ethical
standards of conduct by permitting her secretary to perform personal tasks for
her during work hours. While there was no finding that the official had
coerced her secretary to perform such tasks, the standards of conduct prohibit
a supervisor from directing or even requesting a subordinate employee to
perform activities of a personal nature on official time. (Washington Field
Office of Investigations)



September 1997                           Commerce IG Semiannual Report                         29
                                            Minority Business
                                            Development Agency

                                       East Coast Awardees Neither Met Goals
  The Minority Business
Development Agency was created         Nor Complied with OMB Guidelines
to help minority-owned and
operated businesses achieve                    MBDA awarded a $250,000 cooperative agreement to a nonprofit
effective and equal participation in   organization, and its subrecipient, for the establishment of a comprehensive
the American free enterprise           minority business development program in an East Coast metropolitan area.
system, and overcome the social        The award period was from October 1, 1995, to September 30, 1996, but an
and economic disadvantages that        amendment extended the program through November 30, 1996, at no
have limited their participation in    additional cost to the government. The awardee’s state, county, and city
the past. MBDA provides
                                       provided additional funding, making the total award $575,000.
management and technical
assistance to minority firms upon
request, primarily through a                   The OIG performed a financial, compliance, and performance audit of
network of business development        the cooperative agreement and found several deficiencies, including:
centers. It also promotes and
coordinates the efforts of other       !        Questioned costs of more than $76,000 out of about $550,000
federal agencies in assisting or                claimed by the subrecipient;
providing market opportunities for
minority businesses.                   !        Noncompliance by the awardee with OMB Circular No. A-110
                                                requirements to monitor a subrecipient’s performance; and

                                       !        Unaccomplished goals by the subrecipient.

                                               We recommended that the Department disallow the questioned costs
                                       and recover approximately $33,000 in disbursed funds. We also recom-
                                       mended that MBDA not award future grants to the awardee or the sub-
                                       recipient. Both the awardee and the subrecipient disagreed with our findings,
                                       but presented no evidence to cause us to change our position. We plan to issue
                                       a second audit report to the Department regarding MBDA’s management and
                                       monitoring of the pilot project. (Economic Development Audits Division:
                                       EDD-9406-7-0001)

                                       Audits Report Significant Financial
                                       Deficiencies of Oregon Firm
                                                 MBDA awarded five cooperative agreements to a Portland, Oregon,
                                       consulting firm in 1995 to operate five minority business development centers
                                       in Portland, Salt Lake City, Seattle, Phoenix, and Tucson. The awards funded
                                       the first year of potential three-year awards. The total project cost budgeted
                                       for the five first-year budget periods was approximately $1.04 million,
                                       including a 15 percent local match requirement of $156,196.




30                                         Commerce IG Semiannual Report                            September 1997
                                                     Minority Business Development Agency




         At MBDA’s request, the OIG performed financial audits of the five
individual MBDA awards to the firm to determine whether the costs claimed                       Minority
under the awards were reasonable, allowable, and allocable, and whether the                    Business
                                                                                              Development
firm’s administrative, financial, and program controls complied with the terms                  Agency
and conditions of the award and were adequate to provide required assurances.
(Seattle Regional Office of Audits: STL-8823-7-0002; STL-8823-7-0003;
STL-8823-7-0004; STL-8823-7-0005; and STL-8823-7-0006)                              Finance &               Strategic
                                                                                   Administration           Planning

         Our audits disclosed that the firm failed to comply with numerous
federal and EDA requirements. Many of the deficiencies were long-standing
and had been repeatedly identified in independent audits, but remained              Program                 External
                                                                                   Development               Affairs
uncorrected. Specifically, the firm:

!       Lacked an adequate financial management system, and produced
        financial reports that were inaccurate and unsupported.

!       Did not have a cost estimating system and, despite certifications to the
        contrary, lacked complete, current, accurate, and consistent project
        proposals.

!       Failed to comply with numerous uniform administrative requirements,
        federal cost principles, and award terms and conditions.

         We recommended that the Department require the firm to establish an
adequate financial management system, an estimating system based on
historical experience and company policies, and the controls and systems
necessary to comply with federal financial assistance requirements. In
addition, we recommended that the Department consider the firm a “high risk”
recipient based on financial and cash management deficiencies and
noncompliance with federal financial assistance requirements. The firm’s
noncompliance with award terms and conditions, federal cost principles, and
uniform administrative requirements also caused us to question nearly
$225,000 of almost $1.06 million in total project costs claimed under the first
year of its five current cooperative agreements. (Seattle Regional Office of
Audits: STL-8823-7-0001)




September 1997                           Commerce IG Semiannual Report                                                  31
Minority Business Development Agency




                     Center Operator Pays $50,000
                     to Settle False Claims Act Suit
                              An OIG investigation uncovered evidence that the operator of a
                     minority business development center in Puerto Rico was running a private
                     business from the center’s offices and overcharging the government for center
                     operating expenses, including office lease costs. We also determined that the
                     operator had submitted a fraudulent lease agreement to MBDA to disguise the
                     fact that she was the owner of the office space, which had been leased by the
                     center on a less-than-arm’s-length basis. The matter was referred to the U.S.
                     Attorney’s Office for the District of Puerto Rico, which filed suit against the
                     operator in August 1997 under the False Claims Act. The operator denied any
                     wrongdoing, but agreed to a settlement under which the government will be
                     paid $50,000 plus interest over the next three years. (Denver Field Office of
                     Investigations)

                     Audit Reports Unresolved for Over Six Months
                             A financial assistance audit report, ATL-8882-7-0001 (see March
                     1997 issue, page 38), found that a for-profit consulting firm operating a
                     minority enterprise growth assistance center had failed to maintain financial
                     management and internal control systems that comply with federal standards.
                     We questioned $675,000 in costs and recommended that the firm return nearly
                     $223,000 in unearned federal funds.

                             We are working with MBDA to arrive at an agreement on the
                     appropriate amount of costs to be disallowed.




32                     Commerce IG Semiannual Report                               September 1997
                            National Oceanic and
                        Atmospheric Administration

NOAA Corps Transition Plan Should
                                                                                          The National Oceanic and
Convert No More Than 170 Officers                                                      Atmospheric Administration
                                                                                       studies climate and global change;
        NOAA’s Commissioned Corps has three primary functions:                         ensures protection of coastal oceans
(1) operate and maintain NOAA’s ships, (2) operate and maintain its aircraft,          and management of marine
and (3) provide scientific and engineering support for the line offices. These         resources; provides weather
functions are currently carried out by fewer than 300 officers, with support           services; and manages worldwide
from civil service personnel and wage mariners.                                        environmental data. It does this
                                                                                       through the following
                                                                                       organizations:
         In January 1996, NOAA announced its intention to implement the
                                                                                          National Weather Service.
National Performance Review’s recommendation to eliminate the Corps. Since             NWS reports the weather of the
then, the Department, in consultation with NOAA, has been drafting legis-              United States and provides weather
lation and a transition plan to implement the recommendation. The OIG                  forecasts and warnings to the
conducted an evaluation of the May 1997 legislative proposal and transition            general public.
plan to determine whether they provide the most cost-effective means of                   National Ocean Service. NOS
eliminating the Corps.                                                                 issues nautical and aeronautical
                                                                                       charts; performs geodetic surveys;
         We concluded that the latest versions of the proposal and the plan are        conducts research; and develops
significant improvements over earlier drafts, and many of our concerns about           policies on ocean mining and
                                                                                       energy.
such issues as retirement incentives and separation payments have been
                                                                                          National Marine Fisheries
addressed. However, one important issue remains: How many officers should              Service. NMFS conducts a program
be converted to civil service positions? This issue can be resolved by                 of management, research, and
incorporating the following recommendation into the transition plan:                   services related to the protection
                                                                                       and rational use of living marine
No More than 170 Officers Should Be Converted                                          resources.
to Permanent Civil Service Positions                                                      National Environmental
                                                                                       Satellite, Data, and Information
         The May 1997 transition plan proposes a three-step process: (1) the           Service. NESDIS observes the
120 officers with at least 15 years of service will be involuntarily retired,          environment by operating a
                                                                                       national satellite system.
(2) the 170 officers not eligible for retirement will be placed within 299
                                                                                          Office of Oceanic and
designated positions, and (3) any of the 299 positions that are unfilled and are       Atmospheric Research. OAR
considered essential will be filled by retired officers or other Commerce civil        conducts research related to the
service personnel. We are concerned that the last step will result in almost all       oceans and inland waters, the lower
of the 299 positions being filled and the current organizational infrastructure        and upper atmosphere, space
being locked into place, an approach inconsistent with congressional direction         environment, and the Earth.
relating to outsourcing for ship services.                                                Office of NOAA Corps
                                                                                       Operations. The Corps is the
          We recommended that NOAA implement the transition plan by                    nation’s seventh uniformed service.
(1) retiring all 120 officers with at least 15 years of service, (2) identifying the   Its ships, aircraft, and personnel
                                                                                       support NOAA’s activities
170 most critical positions in the line offices and support activities and filling
                                                                                       throughout the world.
as many as possible with non-retiring officers, (3) determining which of the
170 positions cannot be filled immediately by non-retiring officers,



September 1997                              Commerce IG Semiannual Report                                               33
National Oceanic and Atmospheric Administration




                      and (4) hiring qualified temporary personnel for such positions until non-
                      retiring officers can be trained. This process will provide fair treatment for all
                      officers, prevent disruptions in essential services, and allow NOAA to increase
                      its use of outsourcing options for ship- and aircraft-related activities. By
                      implementing our recommendations, NOAA will have $16.6 million available
                      over the next two fiscal years to acquire additional ship and aircraft support.

                                 The 170 permanent civil service positions should be allocated as
                      follows:

                      !          In NOAA line offices, the number of conversions should be limited
                                 to 100. Over the years, in order to accommodate the Corps rotation
                                 policy, officer positions have been created in NOAA’s five line offices
                                 (see organization chart on this page). NOAA has identified 187 such
                                 positions for possible conversion to civil service positions, even
                                 though the Corps has fewer than 300 officers. Historically, about
                                 40 percent of the funding for the officers assigned to the line offices
                                 has been diverted from ship-related appropriations, even though the
                                 officers are not directly involved in ship support. If funds continue to
                                 be diverted from these appropriations after the transition, NOAA will
                                 have to reduce its use of ships for its vital research activities. For this
                                 reason, we recommended that NOAA limit the converted positions in
                                 the line offices to 100, the approximate number that can be supported
                                 by the offices’ budgets.

                      !          For ship- and aircraft-related activities, the number of
                                 conversions should be limited to 70. Our office, along with the
                                 administration, the Congress, and other groups, has repeatedly
                                 recommended that NOAA pursue outsourcing alternatives for its ship
                                 support activities. Our 1996 report on the NOAA fleet confirmed that
                                 private-sector and academic vessels are available and can perform at
                                 least as well as NOAA’s in-house fleet, at a lower cost (see March
                                 1996 issue, page 43). A similar OIG review of NOAA’s aircraft
                                 services is nearing completion. Creating no more than 70 civil service
                                 positions for ship and aircraft services will furnish enough staffing to
                                 maintain essential in-house services while providing an incentive to
                                 explore outsourcing options. We believe that the number of permanent
                                 positions needed for in-house ships and aircraft can be further reduced
                                 if NOAA aggressively pursues these options.




34                        Commerce IG Semiannual Report                                  September 1997
                                     National Oceanic and Atmospheric Administration




         NOAA disagreed with all of our conclusions and recommendations,
continuing to support the efficacy of its transition plan. We found nothing in
the agency’s arguments to justify changing our conclusions or recommenda-
tions. (NOAA Audits Division: NAD-9087-7-0001)

Excess Satellite Funding Indicates
Need for Better Financial Controls
        NOAA manages two weather satellite programs: polar orbiting and
geostationary operational environmental satellites. Over the next five years,
NOAA plans to request about $2.6 billion for acquiring satellites; operating
command, control, and data acquisition stations; and developing new ways of
using satellite data. The National Aeronautics and Space Administration
(NASA) manages the acquisition and launch of the weather satellites, and
NOAA operates them once they are in orbit.

         For NOAA, an agency operating under tight budget ceilings, efficient
use of the funds it receives for satellite programs should be a high priority
because satellite funding represents close to 25 percent of its budget. NOAA’s
FY 1999 satellite budget request of $568.5 million exceeds the planned
operating budgets of every other NOAA component, including the National
Weather Service.

         In this, our second inspection of satellite funding, we identified
$79.3 million in funds to be put to better use as a result of the accumulation of
NOAA funds at NASA in excess of the amounts NASA required for its
weather satellite work. We also identified steps to prevent such excess funds
from accumulating in the future. Excess funds represent funding that is not
needed to meet NASA current year or forward funding requirements and that
can be better used to support other NOAA critical program needs or to reduce
NOAA’s FY 1998 and 1999 satellite budget requests. The $79.3 million in
funds identified in this report, coupled with $101.3 million in excess funds for
NASA’s acquisition of polar spacecraft identified in an earlier OIG inspection
report (see March 1997 issue, page 41), amount to $180.6 million in funds to
be put to better use.

         NOAA’s practice of sending excess funds to NASA went
unquestioned for years because NOAA lacks adequate financial controls to
ensure the efficient use of its budget authority. The controls described in
NOAA’s budget handbook stress tracking obligations to ensure that they do
not exceed budget authority, but place little emphasis on deciding when
funds should be obligated or on tracking if and when funds are used after
obligation. As of the end of FY 1996, NOAA managers had obligated but

September 1997                            Commerce IG Semiannual Report             35
National Oceanic and Atmospheric Administration




                      not spent close to $885 million to acquire goods and services, including
                      satellites. We believe that the lack of NOAA guidance on the use of budget
                      authority results in large amounts of obligated, but unspent, funds being
                      accumulated and creates a false impression that budget estimates are accurate
                      and programs are proceeding as planned.

                               NOAA needs to ensure that its satellite program managers have tools
                      to assist them in making funding decisions. In response to our first report, a
                      NOAA program analyst is working with NASA to create monthly reports that
                      identify the status of NOAA funds transferred to NASA and the need for
                      additional funding. In addition, NOAA should ensure that costs are properly
                      captured and presented in its capital asset budgets.

                                We recommended that the Department work with NOAA, OMB, and
                      the Congress to reduce excess funding and establish financial controls to
                      prevent the accumulation of excess funds. The ultimate measure of NOAA’s
                      financial management performance will be its ability to control and track its
                      acquisition projects and to produce budget estimates that more accurately
                      reflect its needs.

                               The Department and NOAA agreed with our recommendations and,
                      as a result, will report the $79.3 million in excess funds as FY 1997 carry-
                      over. The Department also stated that it had adjusted its FY 1999 budget
                      request to reflect the excess. We concur with the Department’s actions in
                      identifying and reporting excess funds and recommend that it closely monitor
                      the use of funds in FY 1998 to ensure that it has adequately adjusted its
                      FY 1999 budget. (Office of Systems Evaluation: OSE-8797(2))

                      Coastal Zone Management Recipient
                      Claimed Unsupported and Excessive Costs
                               In September 1995, NOAA awarded an $819,000 cooperative
                      agreement to a Southern state agency responsible for administering the state’s
                      coastal zone management program. The agreement required a $716,000 in-
                      kind matching contribution from the state, bringing the total project budget to
                      $1,535,000. The award continued the annual funding that NOAA has
                      provided the state since 1980 and, like previous awards, was to assist in the
                      development and implementation of an effective coastal zone management
                      program.




36                      Commerce IG Semiannual Report                               September 1997
                                    National Oceanic and Atmospheric Administration




        The OIG conducted a financial and compliance audit covering the
agreement’s one-year performance period of October 1, 1995, to
September 30, 1996. The audit was prompted by allegations that the state
agency may have been improperly using NOAA Coastal Zone Management
grant funds.

         Our audit revealed that the agency had improperly claimed $285,151
in project costs during the one-year period, representing about 21 percent of
the total project costs. Specifically, the agency could not support more than
$164,000 in claimed in-kind matching costs and, as a result, did not meet its
project cost-sharing requirement, and had charged almost $54,000 in
excessive administrative costs to the project because it did not have an
adequate system for allocating such costs. In addition, a recent NOAA
performance review found that the agency was not conducting its coastal zone
management program in a satisfactory manner.

          We recommended that NOAA (1) require the agency to submit
detailed documentation supporting all future in-kind matching costs claimed in
its quarterly financial reports, (2) direct the agency to reasonably and
consistently allocate its administrative costs to its NOAA-funded projects, and
(3) disallow $285,151 in questioned costs, disburse $15,470 to the agency as
its final grant payment, and deobligate the remaining $243,439 in grant funds.
Our audit, which included steps specifically designed to address the
allegations of misuse, did not disclose any evidence that the agency had
improperly used its NOAA grant funds.

         The agency agreed with the report’s findings, and has already taken
action to correct its grant management weaknesses, but we continue to
recommend that NOAA disallow the $285,151 in questioned costs. (Atlanta
Regional Office of Audits: ATL-9632-7-0001)

Preaward Survey Shows Grantee Needs
Financial Management Improvements
        In July 1996, NOAA awarded nearly $200,000 in grant funds to a
Houston engineering company as part of its initiative to implement the
Department’s program for Small Business Innovation Research projects. The
company’s objective is to use the funds to develop an aquaculture environ-
ment control system. At NOAA’s request, we performed a preaward
accounting system survey of the company.




September 1997                           Commerce IG Semiannual Report            37
National Oceanic and Atmospheric Administration




                               We reviewed key aspects of the company’s financial management
                      system, including the company’s organization and management structure;
                      procurement and property management procedures and controls; and
                      personnel management, timekeeping, payroll administration, and labor-cost
                      allocation procedures and controls. We found several weaknesses that could
                      materially affect the company’s operations, and made recommendations to
                      resolve these issues. (Atlanta Regional Office of Audits: ATL-9905-7-0001)

                      Actions Taken by Pacific Fishery
                      Management Council Were Appropriate
                               In response to concerns raised by a California citizen and a
                      constituent of Senator Slade Gorton of Washington state, the OIG examined
                      the conduct of an October 1996 meeting of the Pacific Fishery Management
                      Council, where action was taken to consider sablefish management options for
                      certain types of fishing vessels. Following a review of the audio tapes of the
                      meeting and interviews with Council staff, we concluded that the Council’s
                      actions were proper and did not violate the Magnuson-Stevens Act or any
                      implementing procedures. These actions were later rejected by the National
                      Marine Fisheries Service for reasons other than those stated by the
                      complainants. We also found no evidence of wrongdoing in connection with
                      two other issues raised by the parties. (Seattle Regional Office of Audits)

                      Department Obtains $25,000 in Settlement
                      of Administrative Fraud Claim
                               A NOAA scientist agreed to pay $25,000 to settle a claim under the
                      Program Fraud Civil Remedies Act, which resulted from OIG investigative
                      findings that he had submitted fraudulent documentation to the agency in an
                      effort to obtain more than $16,000 in relocation expenses in connection with a
                      permanent change of duty station. The administrative complaint alleged that
                      he altered a settlement statement on the sale of a house co-owned with his
                      former wife in order to make it appear that it was his primary residence and
                      claim the expenses of the sale. He also raised the sales price to increase the
                      amount of his reimbursement. The attempted fraud was discovered before the
                      employee was paid by NOAA, and he received a five-day suspension for his
                      misconduct. (Washington Field Office of Investigations)




38                      Commerce IG Semiannual Report                              September 1997
                                    National Oceanic and Atmospheric Administration




In Brief
Conviction and Sentencing. An NMFS employee was convicted of theft after
an OIG investigation disclosed that she had forged the name of a coworker to
obtain a $1,000 travel advance from a NOAA imprest fund. In September
1997, she was sentenced to 18 months’ unsupervised probation and 75 hours
of community service, and ordered to make full restitution of the embezzled
funds. (Silver Spring Field Office of Investigations)

Restitution. As part of a pretrial diversion agreement executed in July 1997, a
Louisiana fisherman agreed to make restitution to NMFS in the amount of
$9,314 after a joint OIG/Louisiana Department of Justice investigation
revealed that he had submitted fraudulent documentation to the Fisherman’s
Contingency Fund to support inflated claims for lost fishing gear and
economic losses arising out of two accidents in federal waters. The defendant
also agreed to repay the state department of natural resources more than
$9,000 for false casualty claims filed with that agency. (Denver Field Office
of Investigations)

Suspensions. A senior NOAA manager was suspended when an OIG investi-
gation confirmed that she had kept a loaded gun in an unlocked desk drawer in
her office for more than a year. The weapon was provided to her by a NOAA
security officer after she advised him that she had been threatened by another
employee. The manager received a 14-day suspension for unauthorized
possession of a firearm on a federal work site, and the officer was suspended
for seven days for providing a government weapon to a person without
authority to carry or possess it. (Office of Investigations)

Suspension. An NWS employee was suspended for two weeks and compelled
to repay more than $3,200 to the Department for falsely claiming relocation
expenses for a woman who was not his wife. The employee was living with
the woman at the time of his transfer and improperly included her travel and
moving expenses, and those of her minor child, in his claim for reimburse-
ment. (Denver Field Office of Investigations)

Work in Progress
NMFS Laboratory Structure

         In response to a congressional request, we conducted a performance
audit to assess streamlining and reconfiguration opportunities within the
National Marine Fisheries Service laboratory network. We identified opportu-


September 1997                           Commerce IG Semiannual Report            39
National Oceanic and Atmospheric Administration




                      nities for NMFS to streamline its field structure, including closing some
                      laboratories and transferring their functions to other, underutilized laborato-
                      ries.

                               In its comments on our draft report, NMFS did not agree with the
                      streamlining plan we recommended for the lab structure. NMFS also did not
                      agree with our calculations of the cost savings and avoidances that could
                      be realized by implementing our recommendations. We are incorporating
                      NMFS's comments and our analysis of them in our final report. (Seattle
                      Regional Office of Audits)

                      NMFS Inspection Services Division

                               The National Marine Fisheries Service’s voluntary, fee-for-service
                      seafood inspection program, operated by the NMFS’s Inspection Services
                      Division (ISD), provides quality assurance services to about 2,200 fishery
                      product companies through both in-plant quality assurance and product lot
                      inspections and certifications. In 1995 ISD estimated that it inspected over
                      1 billion pounds of seafood products, representing approximately 23 percent
                      of the total consumed in the United States. In response to a request received
                      from the Assistant Administrator for Fisheries, we evaluated the operational
                      and financial management of ISD. Our recently issued draft report is being
                      reviewed by NOAA; our final report will be issued during the next semiannual
                      period. (Seattle Regional Office of Audits)

                      Coastal Zone Management and National
                      Estuarine Research Reserve System Programs

                               NOAA’s Coastal Zone Management and National Estuarine Research
                      Reserve System programs are federal/state partnerships, in which the federal
                      government assists the states in effectively protecting and promoting the wise
                      use of land and water resources in the coastal zone. Currently, 31 of the 35
                      coastal states and territories have NOAA-approved Coastal Zone Manage-
                      ment programs, and there are 21 designated Reserve sites. In a recent review
                      of the effectiveness and efficiency of the two programs, we found that, despite
                      marked improvement in the programs’ management and operations in recent
                      years, several issues warrant NOAA management attention. Our draft report
                      on the two programs is being reviewed by NOAA. After considering NOAA’s
                      comments, we will issue our final report during the next semiannual period.
                      (Office of Inspections and Program Evaluations)




40                      Commerce IG Semiannual Report                                September 1997
                                      National Oceanic and Atmospheric Administration




Severe Weather Forecasting

          As a key aspect of its mission, the National Weather Service helps
protect the nation’s people and property from the dangerous effects of severe
and hazardous weather by issuing severe weather and flood warnings, public
forecasts, and advisories. NWS determines how well it handles its severe
weather responsibilities through verification—a quality control process that
essentially matches warnings to actual weather observations and compiles
statistical results of forecasting performance. In an inspection of this process,
we focused on assessing whether (1) NWS’s severe storm verification activi-
ties and statistics are valid and reliable measures of NWS severe storm
forecasting performance, and (2) its modernization efforts have improved the
accuracy of such forecasting.

          Based on our inspection, we concluded that NWS’s modernization
efforts have resulted in more accurate forecasting and that its verification
statistics are vital, and generally valid, measures of performance. However,
our recently issued draft report also highlighted a number of ways in which the
reliability of NWS’s verification statistics and process can be improved. Our
draft report is being reviewed by NOAA; our final report will be issued during
the next semiannual period. (Office of Inspections and Program Evaluations)

Audit Reports Unresolved for Over Six Months
         As of September 30, 1997, there were three performance audit
reports, one financial assistance audit report, and one preaward contract audit
report with recommendations unresolved for more than six months.

Consolidation of NWS Tsunami Warning Program

         The first performance audit report, NWS Tsunami Warning Program
Should Be Consolidated, STL-7066-6-0001 (see September 1996 issue,
page 41), concluded that the tsunami warning centers in Hawaii and Alaska
could be eliminated by transferring some duties to the Interior Department’s
U.S. Geological Survey, having some duties assumed by other NOAA offices,
and leaving other duties to the states. NOAA disagreed with our findings and
recommendations. NOAA believes that the recommended actions would
reduce program effectiveness and increase program costs. We have suggested
an alternative approach as a basis for resolution and are awaiting NOAA’s
response.




September 1997                             Commerce IG Semiannual Report            41
National Oceanic and Atmospheric Administration




                      Expanded Vessel Buyout Program

                               In another report, Expanded Vessel Buyout Program Is Not Needed,
                      ENT-8657-7-0001 (see March 1997 issue, page 48), we recommended that
                      NOAA cancel the buyout program, transfer appropriate funding to existing
                      federal programs that can better meet the needs of the Northeast fishing
                      community, and transfer any remaining unused funds to the Treasury.

                               NOAA disagreed with our findings and recommendations. NOAA
                      believes that the Fishing Capacity Reduction Initiative is an integral part of a
                      comprehensive disaster relief plan, offering significant conservation benefits.
                      However, NOAA further indicated that it has no plans for another round of
                      buyouts in the Northeast and there is no funding for buyouts in the FY 1998
                      and FY 1999 budgets. Because all program funds will soon be expended, the
                      report’s recommendations can no longer be implemented and resolution of
                      those specific recommendations is a moot issue.

                                We remain unconvinced of the merits of the Fishing Capacity Reduc-
                      tion Initiative and strongly suggest that NOAA monitor it and measure its
                      impact. We suggested that NOAA conduct an evaluation of the $23 million
                      initiative before expending any funds above that level for additional vessel
                      buyouts. We are awaiting NOAA’s response.

                      Northwest Emergency Assistance Plan

                               In a third report, Northwest Emergency Assistance Plan Funds Can
                      Be Used More Effectively, STL-8518-7-0001 (see March 1997 issue, page
                      46), we recommended that the plan be made more effective by reallocating
                      funding of future permit buyback programs to salmon habitat restoration and
                      data collection programs. In addition, we recommended that the project
                      funding criteria be revised to ensure that habitat restoration and data collection
                      projects comply with the requirements of the Interjurisdictional Fisheries Act
                      and the Secretary’s disaster declaration.

                               NOAA disagreed with our findings and recommendations. NOAA
                      believes that the permit buyback program was a wise use of funds and it will
                      consider buyback proposals if future funds are made available under the
                      Northwest Emergency Assistance Plan. NOAA is satisfied that the habitat
                      restoration and data collection projects comply with the act and the disaster
                      declaration. Thus, there is no plan to revise the criteria.

                                We reaffirmed our recommendations and urged NOAA to reconsider
                      its position. We are awaiting NOAA’s revised audit action plan.


42                      Commerce IG Semiannual Report                                September 1997
                                    National Oceanic and Atmospheric Administration




University of Hawaii

         This financial assistance audit report, ATL-9999-5-0753 (see Sep-
tember 1995 issue, page 99), questioned $1.1 million of claimed costs. NOAA
requested that resolution be deferred until (1) a final determination of the
allowability of costs has been made by the Defense Contract Audit Agency
(DCAA), and (2) negotiations regarding ship day rates and other costs for
specialized service research are completed by the Office of Naval Research,
the cognizant agency for the university in resolving issues identified in the
audit. NOAA has received the DCAA report and is communicating with
DCAA, the Office of Naval Research, and the university in an attempt to
conclude this matter. We are awaiting NOAA’s revised audit resolution
proposal.

Preaward Contract Audit Report

        The NOAA preaward contract audit report is referenced on page 65.




September 1997                          Commerce IG Semiannual Report            43
                                             National Telecommunications
                                             and Information Administration

                                         San Francisco-Based Awardee
  The mission of the National
Telecommunications and                   Did Not Achieve Grant Goals
Information Administration is to
(a) serve through the Secretary of                Under its Telecommunications and Information Infrastructure
Commerce as the principal                Assistance Program, NTIA awarded a $450,000 grant to a San Francisco-
executive branch advisor to the          based organization that works to meet the social and economic needs of the
President on domestic and                Hispanic community. The award required nearly $675,000 in matching funds,
international communications and         bringing the total project budget to about $1.125 million. The grant funded a
information policies, (b) ensure
                                         demonstration project intended to show how minority communities could
effective and efficient federal use of
the electro-magnetic spectrum,
                                         participate in the nation’s advanced information infrastructure. Specifically,
(c) develop with other federal           the organization’s goals included operating as a national information provider
agencies policies for international      on the Internet, developing an informational database generated and managed
communications and standards-            by Latino organizations, obtaining specified levels of subscribers, and
setting organizations, (d) serve as      establishing five regional offices in major U.S. cities.
the federal telecommunications
research and engineering center,                  The OIG performed an interim audit of the grant period of
and (e) administer grants under the      October 15, 1994, through March 31, 1996. We found that the grantee
Information Infrastructure Grants        (1) did not achieve all of its grant goals, as it failed to attract the expected
Program and the Public
                                         number of subscribers or to establish all proposed regional offices, (2) did not
Telecommunications Facilities
Program.
                                         meet matching funds requirements, and (3) incurred questioned costs of nearly
                                         $300,000.

                                                  We recommended that the Department evaluate the feasibility of
                                         requiring the organization to complete all of its grant goals, require adequate
                                         support for all matching share contributions made to the project after the
                                         period covered by the audit, disallow the nearly $300,000 in questioned costs,
                                         and recover more than $94,000 in excess grant disbursements. The
                                         organization agreed that two grant goals had not been achieved and with the
                                         issues related to the availability of matching funds, but disagreed with the
                                         questioned costs. (Seattle Regional Office of Audits: STL-8890-7-0001)

                                         Grantee Costs Questioned
                                         Because of Procurement Deficiencies
                                                   In October 1994, a state government organization was awarded an
                                         NTIA grant for about $400,000 to start a single statewide multipurpose voice,
                                         data, and video network. The grantee, which provided equal matching funds,
                                         was to develop a network of 20 communitywide points of presence in school
                                         districts throughout the state. In July 1996, the award was transferred to
                                         another state instrumentality and amended to expand the network to eight
                                         additional sites.



44                                         Commerce IG Semiannual Report                               September 1997
                   National Telecommunications and Information Administration




        The OIG conducted a financial and compliance audit of the grant
covering the period of October 15, 1994, to December 31, 1996. We found
more than $227,000 in improperly claimed project costs due to the failure to
follow federal procurement rules, which require full and open competition.
We recommended that the Department disallow the questioned costs and
recover the federal share of more than $113,000. In addition, we recom-
mended that the Department require the grantee to implement and follow all
applicable procurement procedures.

         In response to our draft report, the grantee disagreed with our finding
of procurement deficiencies, stating that it is exempt from state purchasing
requirements and is only required to follow generally accepted good business
practices. We reaffirmed our finding and recommendation since the grantee,
in accepting the transfer of the grant, agreed to abide by federal procurement
standards. (Atlanta Regional Office of Audits: ATL-9631-7-0001)

Telecommunications Network Grantee
Improperly Claimed In-Kind Contributions
         In October 1995, NTIA awarded a $225,000 grant to a nonprofit
organization for a telecommunications network project to reduce disparities in
access to the national information infrastructure for low income families in
eight neighborhoods in a Connecticut city. The grant required a matching
contribution of about $470,000, making the total project budget approxi-
mately $695,000.

         The OIG completed a financial and compliance audit of the grant for
the period of October 15, 1995, to June 30, 1996, and found approximately
$33,000 in project costs that had been improperly claimed. The questioned
costs included nearly $28,000 of in-kind contributions and about $5,000 of
inadequately supported costs. We also followed up on a complaint alleging
misuse of federal funds by a project subcontractor, but found no evidence to
substantiate the allegation.

        We recommended that the Department disallow the improperly
claimed project costs and recover more than $24,000 in excess grant
disbursements from the grantee, and include a requirement that support
documentation for all claimed in-kind contributions for future grants be
provided to the Grants Officer with each “Request for Reimbursement.” The
grantee’s response to our final report has been received and is being evaluated
by the Department. (Atlanta Regional Office of Audits: ATL-8844-7-0001)




September 1997                            Commerce IG Semiannual Report            45
                                           Patent and
                                           Trademark Office

                                       Patent Quality Controls Are Inadequate
   The Patent and Trademark
Office administers the nation’s
                                                PTO’s Office of Patent Quality Review is responsible for monitoring
patent and trademark laws. Patents
are granted, and trademarks            and evaluating the quality of the patent examination process by reviewing a
registered, under a system intended    sample of allowed patents and reporting the results to PTO management. In a
to provide incentives to invent, to    1990 report, the OIG cited inefficiencies by PTO in its quality review process
invest in research, to commercialize   and in its use of OPQR data to make improvements in the patent examination
new technology, and to draw            process (see March 1990 issue, page 7). PTO implemented most of our
attention to inventions that would     recommendations and, between 1990 and 1996, experienced a steady decline
otherwise go unnoticed. PTO also       in the percentage of possible patent errors and patent cases reopened.
collects, assembles, publishes, and
disseminates technological
                                                However, in 1994, PTO decided to eliminate OPQR in favor of a
information disclosed in patents.
                                       proposal called the Examination Quality Program (EQP), which was intended
                                       to reinvent the patent quality review process. We raised serious concerns
                                       about the proposal and recommended that PTO refrain from eliminating
                                       OPQR until it had confirmed the effectiveness of the replacement process.
                                       PTO agreed to maintain OPQR’s staffing level and continue sampling
                                       examiner actions at a 4 percent sampling rate of allowed patents until EQP
                                       was proven to be equally effective.

                                                We recently performed an audit to evaluate the effectiveness of OPQR
                                       and the status of PTO’s efforts to implement a substitute quality review
                                       process. The audit disclosed that PTO had not carried out its previous
                                       assurances to us that it would retain enough patent reviewers within OPQR to
                                       continue sampling examiner actions. We found that PTO had both reduced
                                       OPQR’s staff and sampling levels and delayed the implementation of EQP,
                                       seriously reducing the effectiveness of the quality control program. For
                                       instance, between FY 1992 and FY 1996, the number of patent reviewers was
                                       reduced from 16 to 9, while the sampling rate declined from 3.8 to 2.1 per-
                                       cent. In April 1996, PTO officially reduced the sampling rate to 2 percent
                                       without supporting statistical analysis; since then, error rates reported by
                                       OPQR have gradually increased.

                                               We also learned that a recent pilot project to assess the viability of
                                       two major EQP components had identified serious weaknesses, and that EQP
                                       implementation may be further delayed by uncertain funding and negotiations
                                       with employee unions. Moreover, our 1990 recommendation that OPQR
                                       expand its sampling to include examiners’ initial decisions (known as “first
                                       actions”) had not been implemented.




46                                       Commerce IG Semiannual Report                              September 1997
                                                                       Patent and Trademark Office




         We recommended that PTO reinstate the necessary OPQR staff to
sample allowed applications at the previously validated rate of 4 percent,
conduct a statistical analysis of the current sampling methodology to
determine a level necessary to produce valid results, and expand the patent
quality review process to include the review of initial decisions.

         PTO agreed with our evaluation of the current quality review process,
accepted our recommendations, and outlined actions to implement them.
Specifically, PTO stated that it anticipated that the results of the analysis
called for by the second recommendation would provide OPQR with the
resources to carry out the first and third recommendations. (PTO Audits
Division: PTD-9977-7-0001)




September 1997                           Commerce IG Semiannual Report                          47
                                             Technology
                                             Administration


   The Technology Administration
                                        NIST’s Advanced Technology Program Needs
serves the needs of technology-         Financial and Management Improvements
based industry, advocates federal
actions and policies to speed the               The Advanced Technology Program, one of four major programs
transfer of technology from the         managed by NIST, was established in 1988 to promote the economic growth
laboratory to the marketplace, and      and competitiveness of U.S. business by accelerating the development and
removes barriers for commer-
                                        commercialization of promising high-risk technologies. ATP is a cost-sharing
cializing new technologies by
industry. It includes three major
                                        program that provides funds to single companies and joint ventures for
organizations:                          research and development on pre-competitive generic technologies.
   Office of Technology Policy.
OTP works to raise national                     In August 1994, NIST received departmental approval to designate
awareness of the competitive            ATP as a multi-year financial assistance program. Multi-year program
challenge, promotes industry/           designation enables departmental financial assistance programs to make
government/university partnerships,     awards for periods of more than one year even though the program does not
fosters quick commercialization of      have enough money to fund the entire award project. To be eligible for multi-
federal research results, promotes      year funding, a project must be severable into annual segments that have
dedication to quality, increases
                                        defined work products that represent tangible accomplishments. With this
industry’s access to and partici-
pation in foreign research and
                                        designation, funding agencies are permitted to obligate funds for a one-year
development, and encourages the         budget period and anticipate options to renew for up to two additional years.
adoption of global standards.           ATP received an exception to the general rule and was given approval to
   National Institute of Standards      renew award agreements for up to four additional years.
and Technology. NIST promotes
U.S. economic growth by working                  The OIG conducted an audit to assess NIST’s use of multi-year
with industry to develop and apply      funding for ATP projects, and the adequacy of management controls over
technology, measurements, and           NIST’s FY 1995 ATP final award process. Our audit disclosed that NIST
standards. NIST manages four            inappropriately used incremental funding for research awards that were not
programs: the Advanced Technol-
                                        severable. NIST also failed to comply with departmental requirements for
ogy Program, the Manufacturing
Extension Partnership Program, a
                                        multi-year funding because the grants officer did not certify that project
laboratory-based measurement and        activities for FY 1995 awards were severable.
standards program, and the
National Quality Program.                        We found that by the end of FY 1996, NIST had accumulated
   National Technical Information       approximately $155 million of unfunded balances for ATP projects that
Service. NTIS is a self-supporting      should be disclosed in the overview and notes to its annual financial
agency that supports the nation’s       statements in order to provide management with more complete information
economic growth and job creation        for use in making financial management decisions. NIST also did not
by providing access to voluminous       adequately control the FY 1995 final award process in several respects. We
information that stimulates inno-       made the following recommendations to NIST:
vation and discovery. NTIS accom-
plishes this mission through two
major programs: information             !        To correct the deficiencies related to incremental funding and ensure
collection and dissemination to the              compliance with appropriate laws and regulations, NIST should
public, and information and pro-                 require that all prior year ATP awards not funded for the entire
duction services to federal agencies.            project period be reviewed and (1) ensure that required certifications
                                                 of severability are prepared for awards that are severable, and


48                                          Commerce IG Semiannual Report                              September 1997
                                                                            Technology Administration




        (2) fully fund the remaining awards that are not severable before
        obligating funds for new ATP awards.

!       For all new ATP awards, NIST should ensure that required
        certifications of severability are prepared for all awards that are
        severable, and fully fund in advance awards that are not severable.

!       To provide for proper disclosure of the ATP unfunded balance,
        NIST should ensure that auditable records are maintained to track the
        $155 million ATP unfunded balance, and fully disclose the unfunded
        balance in the overview and notes to NIST’s annual financial
        statements.

!       To strengthen management control over future ATP awards, NIST
        should ensure that (1) awards are announced and notifications sent to
        successful applicants only after grants specialists have completed
        their financial reviews and final award process work, (2) grants
        specialists are appointed to ATP source evaluation boards to
        emphasize the importance of their work and involve them more in the
        proposal review and selection process, and (3) a system is established
        to identify and track award agreements with contingency clauses to
        prevent funds from being disbursed to recipients before all
        contingencies are resolved.

         NIST generally agreed with our recommendations and submitted an
audit action plan for implementing them. (Technology Audits Division: ENT-
8984-7-0001)

Accounting System Surveys and Audits
of NIST Financial Assistance Recipients
         As noted in earlier issues of this report, the OIG has been performing
a series of accounting system surveys of first-time recipients of financial
assistance awards under NIST’s Advanced Technology and Manufacturing
Extension Partnership programs (see, for example, March 1997 issue, page
64). During this semiannual period, key aspects of our work on NIST
financial assistance programs involved auditing ATP joint venture recipients
and responding to a congressional request seeking information on potential
“double billing.”




September 1997                            Commerce IG Semiannual Report                            49
Technology Administration




                      Advanced Technology Program

                              During the period, we reported on 20 audits covering two ATP joint
                      ventures and one single recipient with award periods of up to five years, and
                      having total estimated costs of more than $68.8 million, with a federal share
                      potentially as high as $33.0 million.

                               More than 100 joint venture ATP awards involving over 500 compa-
                      nies have been issued with total estimated costs exceeding $2.0 billion (federal
                      and nonfederal). Our examination of two ATP joint venture awards with
                      19 participants and a total of $64.3 million in federal and nonfederal funds
                      identified questionable transactions of $10.7 million, generally involving
                      software development companies that provided licenses, software maintenance
                      and support, or other items from a commercial product line for use on the
                      project. Problems arose because federal cost reimbursement rules do not
                      permit financial assistance award recipients to be reimbursed for previously
                      invested development costs, corporate interest expenses, or profit—all of
                      which are significant ingredients of software commercial prices.

                              We have worked closely with NIST grant and program officials on a
                      proposed rule (published in the Federal Register on September 17, 1997) that
                      will address the valuation of transfers of goods and services, including
                      computer software, between separately owned joint venture members. The rule
                      would permit 75 percent of the participant’s best commercial price or its
                      actual cost, whichever is greater, to be claimed as an allowable cost to future
                      ATP awards. (Denver Regional Office of Audits: DEN-8932-7-0001, DEN-
                      9752-7-0001, DEN-9758-7-0001, DEN-9759-7-0001, DEN-9760-7-0001,
                      DEN-9761-7-0001, DEN-9762-7-0001, DEN-9763-7-0001, DEN-9764-7-
                      0001, DEN-9765-7-0001, DEN-9766-7-0001, DEN-9767-7-0001, DEN-
                      9768-7-0001, DEN-9774-7-0001, DEN-9775-7-0001, DEN-9776-7-0001,
                      DEN-9777-7-0001, DEN-9779-7-0001, DEN-9827-7-0001)

                               The single recipient had two awards for $4.5 million, with an
                      estimated federal share of $4.0 million. The audit identified weaknesses in the
                      recipient’s financial management and accounting systems, in particular the
                      failure to adequately account for federal funds, to properly claim and
                      document only allowable costs, and to implement adequate policies and
                      procedures. Questioned costs on this audit exceeded $100,000. (Denver
                      Regional Office of Audits: DEN-9002-7-0001)




50                      Commerce IG Semiannual Report                               September 1997
                                                                           Technology Administration




Manufacturing Extension Partnership Program

          The three surveys completed during this period covered MEP projects
having total estimated costs for the two- to three-year award periods exceeding
$8.9 million, with a federal share that could ultimately be as much as
$4.1 million. We found that the accounting and financial management systems
of all three recipients complied with federal regulations. (Denver Regional
Office of Audits: DEN-9490-7-0001, DEN-9828-7-0001, and DEN-9857-7-
0001)

Congressional Request Related to Double Billing

        At the request of the Chairman of the House Science Committee, we
provided information on the operations of three Department programs:
ATP, MEP, and the Small Business Innovation Research (SBIR) program.
The ATP and MEP programs are unique to the Department of Commerce,
while the SBIR program operates governmentwide.

         The Committee’s concern was that companies may apply for and
receive financial assistance from more than one federal source for the same or
similar proposals, thereby increasing the risk that the companies will engage in
illegal double billing. Within the Department, we identified 568 companies and
nonprofit organizations that had received 871 awards from the ATP, MEP, or
SBIR program between 1991 and 1996.

        We did not identify any small business or nonprofit organization that
had received awards from all three programs. Only nine recipients, or less
than 2 percent, were funded under two programs: eight small businesses
received awards from both the ATP and SBIR programs; one entity received
awards from the MEP and SBIR programs, but did not make any cost claims
under the SBIR award, which was canceled. The funding patterns for the eight
small businesses were as follows:

!       Three companies had ATP awards totaling $4,911,000 that were
        completed before SBIR awards totaling $149,794 were received.

!       One company had an SBIR award of $48,285 that was completed
        before an ATP joint venture award totaling $8,148,000 was received.

!       Four companies received ATP and SBIR awards in the same fiscal
        years.




September 1997                            Commerce IG Semiannual Report                           51
Technology Administration




                              Our audits of the four small businesses receiving ATP and SBIR
                      awards in the same year found no double billing. Complete results of these
                      audits will be reported during the next semiannual period. (Denver Regional
                      Office of Audits)

                      NIST Properly Handled Superfund
                      Interagency Agreements with EPA
                              Under interagency agreements with the Environmental Protection
                      Agency, NIST conducts technical research to counteract the effects of toxic
                      waste spills. Funds appropriated for these agreements are made available
                      through the Hazardous Response Trust Fund, known as the Superfund.

                               The Superfund Amendments and Reauthorization Act of 1986
                      requires the OIG to audit all payments, obligations, reimbursements, or other
                      uses of the Superfund annually to ensure that it is being properly adminis-
                      tered. During this semiannual period, we conducted two audits to determine
                      whether NIST had properly managed the financial aspects of the Superfund
                      agreements entered into with EPA during FYs 1995 and 1996.

                               We determined that NIST had accurately accumulated, documented,
                      and charged the Superfund reimbursable costs for the funds received, and that
                      the funds had been received in advance for all work performed. Our evaluation
                      of NIST’s compliance with laws and regulations indicated that the agency was
                      in compliance with the relevant financial provisions of the legislation that
                      created the Superfund.

                              NIST was also in compliance with the terms and conditions of the
                      interagency agreements, and controls over Superfund activities were adequate.
                      During both years, NIST properly traced EPA Superfund monies by providing
                      segregated cost centers for the expenditures. As a result, we made no
                      recommendations. (Economic Development Audits Division: EDD-9836-7-
                      0001 and EDD-10062-7-0001)

                      OIG Work at NTIS Indicates That
                      PBO Legislation Should Be Put on Hold
                              During this semiannual period, we responded to a request for
                      comments from the Department’s Office of General Counsel on legislation to
                      convert NTIS to a performance-based organization. NTIS was selected to be
                      converted to a PBO due, in large part, to its successes during the 1990s in
                      adopting a more businesslike atmosphere, establishing an improved


52                      Commerce IG Semiannual Report                              September 1997
                                                                            Technology Administration




integrated accounting and order processing system, and receiving fewer
customer complaints. The PBO concept is designed to provide certain federal
agencies with greater flexibility in procurement and more control over finances
and personnel, in exchange for stricter accountability for performance.

         A clearly defined mission and the ability to generate sufficient
revenues to support business operations are the two key prerequisites for
becoming a PBO. We are concerned about whether NTIS currently meets
either of these prerequisites.

         We recently completed an analysis of NTIS financial data for the
period FY 1991 through FY 1997. Our analysis concluded that NTIS will not
meet its mandate to be self-supporting unless revenues increase and/or
operating costs decrease. NTIS has suffered a net loss in two of the last three
years, including an estimated loss of $3.0 million in FY 1997 due to decreased
sales and increased costs, and current trends indicate that NTIS will run out of
funds in FY 1998.

         In early 1997, we conducted a program evaluation that examined
NTIS’s operations and expansionary activities (see March 1997 issue,
page 58). In our report, we noted that NTIS’s traditional mission appeared to
fit the PBO concept, but we expressed concerns that the agency was
undertaking activities based on a very broad interpretation of its mission and
authority under the American Technology Preeminence Act of 1991.

         Our inspection of one such activity, the joint NTIS-Internal Revenue
Service CyberFile project, found that NTIS lacked the requisite in-house
technical and management expertise to handle such a project (see March 1997
issue, page 59). NTIS’s role in the project was also criticized by the General
Accounting Office, the IRS internal audit office, and the Congress. Based on
these concerns, we recommended that NTIS establish written criteria and a
process for thoroughly reviewing all “expansionary” projects to avoid taking
on projects that are potentially outside of the agency’s mission or capabilities
and to ensure that ample time is afforded to effectively plan, manage, and
complete any undertaking that meets the established criteria. NTIS agreed to
implement this recommendation.

         However, the draft PBO bill includes a provision that would further
expand NTIS’s mission to allow the agency to provide “information-related
services to other federal agencies.” This provision would place virtually no
limits on the types of information-related activities NTIS would be authorized
to undertake, some of which may not be appropriate government



September 1997                            Commerce IG Semiannual Report                            53
Technology Administration




                      activities and could put the agency in direct competition with the private
                      sector. We recommended that the Department not proceed with legislation to
                      convert NTIS to a PBO until an appropriate mission for the agency has been
                      clearly defined and the agency is able to demonstrate, through short- and
                      long-term business plans, that it will be able to generate sufficient revenues to
                      remain financially self-supporting and position itself for the future. (Office of
                      Audits and Office of Inspections and Program Evaluations)

                      OIG Helps NTIS and IRS Reach $1.75 Million
                      Settlement of CyberFile-Related Debt
                               In our previous Semiannual Report (see March 1997 issue, page 59),
                      we discussed the management and procurement problems related to CyberFile,
                      a $20 million on-line tax-filing system that NTIS was developing for IRS.
                      Because of the many problems associated with CyberFile, IRS refused to pay
                      NTIS the $1.9 million balance for costs incurred on the project. Having so
                      poorly managed the project, NTIS officials were in a difficult position to
                      convince IRS that it should pay the funds owed. The potential consequences to
                      NTIS were serious, including the possibility of becoming “anti-deficient” (that
                      is, incurring obligations in excess of amounts available in appropriations) if
                      IRS did not pay the balance due.

                               In May 1997, OIG staff prepared an analysis for IRS internal
                      auditors describing NTIS procurement lapses, but also noting the great extent
                      to which IRS shared in these problems. We also analyzed how much NTIS
                      had spent on the project and what work products had been delivered to IRS.
                      Despite the procurement deficiencies that we reported, we believed IRS owed
                      the disputed amount. The Inspector General and the Department’s Under
                      Secretary for Technology later met with the IRS Deputy Commissioner to try
                      to resolve the payment issue. In July, IRS agreed to repay NTIS about
                      $1.75 million of the disputed amount related to CyberFile. (Office of
                      Inspections and Program Evaluations)

                      In Brief
                               A procurement official received a letter of reprimand and was
                      required to donate 56 hours of annual leave to the agency’s leave transfer
                      program after an OIG investigation disclosed that he was obtaining equipment
                      for his own use from a NIST vendor at no cost or discounted prices. The
                      employee was also relieved of all procurement responsibilities and directed to
                      attend supplemental ethics training. (Denver Field Office of Investigations)



54                      Commerce IG Semiannual Report                                September 1997
                       Departmental Management


ASCs Need Functional Realignment
and Focus on Essential Services                                                               Chief Financial
                                                                                                  Officer &
                                                                                            Assistant Secretary
        Commerce’s Administrative Support Centers (ASCs) were created in                     for Administration

1983 to provide more cost-effective administrative services for the Depart-
ment’s many field units, thereby relieving the bureaus of that burden, reducing
                                                                                     Budget,                 Security
the duplication of administrative units, and providing more effective services.   Management                 & Admin.
                                                                                  & Information              Services
The Department established ASCs in four cities: Norfolk, Virginia; Kansas
City, Missouri; Boulder, Colorado; and Seattle, Washington. Because NOAA
is the Department’s largest bureau and has the most field offices, it was          Executive
                                                                                                            Financial
                                                                                   Budgeting
selected to provide this “Commerce” service, with substantial departmental          & Asst.                Management
                                                                                  Management
oversight.

                                                                                   Systems
         An OIG inspection of the ASCs was conducted to examine their             & Telecom.
                                                                                                             Human
                                                                                                            Resources
                                                                                  Management               Management
efficiency and effectiveness in supporting the Department’s field units, with a
special focus on (1) the oversight and leadership provided by NOAA and the
Department, and (2) the ASCs’ current operations, as well as their future
                                                                                   Acquisition                 Civil
viability.                                                                        Management                  Rights



          We found that the ASCs, their clients’ expectations, and the delivery
of administrative services are changing dramatically because of technological
advances, organizational realignments, budget cuts, and shifting management
initiatives. Because of these changes and the ASCs’ uncertain status, senior
Commerce and NOAA officials must ensure that administrative services are
provided to the field units as efficiently, economically, and effectively as
possible.

         We also found that although ASC personnel seemed committed to
providing high-quality service and clients gave them high marks for their
work, there has been significant client concern about billing and funding
issues. Moreover, departmental and NOAA management voids have
complicated ASC operations by fostering inefficiencies and weakening the
ASCs. This has resulted in one major bureau, Census, abandoning the
centers, and another, ITA, considering doing the same.

        Concerning specific ASC units, we concluded that (1) some human
resources division functions should be consolidated, automated, or moved,
(2) procurement division operations could be improved by certain changes and
a consolidation, (3) much of the finance division work should be outsourced,
(4) some streamlining would benefit the systems divisions, and (5) the
functions of the facilities and logistics divisions need management attention.
Moreover, we recommended that the ASC deputy director positions be
eliminated, a change later implemented by NOAA.


September 1997                            Commerce IG Semiannual Report                                                 55
Departmental Management




                             An important part of our inspection dealt with Commerce’s
                    implementation of one of the six franchise pilot projects authorized by the
                    Government Management Reform Act of 1994 to provide financial support to
                    agencies that provide common administrative services in an entrepreneurial
                    manner. The purpose of this initiative is to promote governmentwide
                    competition among administrative services providers, leading in theory to
                    better, more cost-effective services. One of the proposed Commerce franchises
                    involves the ASCs.

                              At the time of our review, two ASCs were offering their procurement
                    services on a franchise basis to other agencies, and discussions were underway
                    to expand franchising activities at all four centers. However, we identified a
                    shortage of staff, the need for major operational improvements, a potential for
                    overextending resources to support non-Commerce agencies, and uncertain
                    systems support. As a result, we believe that further franchising initiatives at
                    the ASCs should be curtailed until NOAA and the Department address the
                    concerns discussed in our report, and clearly demonstrate, through benefit-cost
                    analyses, the advantages of allowing the ASCs to pursue franchising
                    initiatives at this time.

                            Although we believe that all four ASCs should remain open for now,
                    Department and NOAA management should begin reviewing all Commerce
                    administrative functions, with a view toward maximizing consolidation and
                    outsourcing, and reducing staffing. We also made recommendations to
                    improve the delivery of administrative support services to Commerce field
                    operations.

                             NOAA disagreed with certain of our recommendations. For example,
                    in response to one major recommendation, to outsource the administrative
                    payments function, NOAA has assured us that the implementation of CAMS
                    will resolve our concerns. We are giving NOAA the benefit of the doubt, but
                    will closely monitor developments.

                            In response to a second major recommendation, to curtail further
                    expansion of the franchise initiatives, NOAA and the Department both
                    disagreed. In fact, NOAA wants to expand its ASC franchise to include all
                    administrative services. We continue to believe that NOAA and the
                    Department should not expand the use of their outdated computer systems or
                    hire additional personnel to support non-Commerce agencies until they can
                    conclusively demonstrate cost-effectiveness. We also have concerns about the
                    ASCs’ ability to provide proper procurement oversight to many new
                    customers and the lack of an analysis of the market for administrative
                    services. (Office of Inspections and Program Evaluations: IPE-8569)


56                    Commerce IG Semiannual Report                               September 1997
                                                                         Departmental Management




OIG Leads Project to Identify Best Practices
for Prescreening Financial Assistance Recipients
        The Commerce OIG recently undertook a project for the President’s
Council on Integrity and Efficiency’s Committee on Inspection and Evaluation
intended to benefit both the Offices of Inspector General and their agencies’
respective financial assistance award processes. The project involves
conducting a survey to identify successful techniques used by OIGs and
agency grant and loan offices to identify and screen out potentially prob-
lematic recipients of federal grants, loans, loan guarantees, or cooperative
agreements before they receive federal funding.

         The project goal is to highlight the best practices used by individual
organizations, so that other OIGs and agencies will have an opportunity to
adopt such practices in their review procedures for federal assistance awards.
By sharing this information, the OIG community should be able to establish a
more effective, efficient, and focused effort to prevent, as well as detect,
waste, fraud, and abuse by financial assistance recipients. We are preparing a
draft report on our findings. (Office of Inspections and Program Evaluations)

OPM Issues New AUO Guidelines
Based on OIGs’ Findings
         In June 1997, the Office of Personnel Management issued new
guidelines on administratively uncontrollable overtime (AUO) pay, following
governmentwide OIG audits of each agency’s AUO program. Agencies are
authorized to disburse premium pay for AUO, ranging from 10 to 25 percent
of basic pay, when three criteria are met: (1) an employee’s hours cannot be
controlled administratively, (2) the employee’s position requires substantial
amounts of irregular, unscheduled overtime duty, and (3) the employee is
responsible for recognizing, without supervision, circumstances that require
him or her to remain on duty.

         The OIG audits found several problems and deficiencies, including
insufficient documentation of payments, inadequate guidance on imple-
menting the policy, errors in the computation of AUO percentage rates, and
misinterpretations of the benefit’s relationship to premium pay. The OPM
guidelines address the OIG concerns, as well as work scheduling requirements,
pay limitations, and payment for seasonal and temporary assignments.




September 1997                           Commerce IG Semiannual Report                        57
Departmental Management




                             Our audit found that all Department of Commerce AUO payments for
                    the year ending October 12, 1996, were made to 55 NOAA employees, who
                    received a total of about $228,000 (see March 1997 issue, page 74). We
                    recommended that the Department and NOAA ensure that units authorizing
                    AUO payments for employees maintain and review records of overtime
                    worked, determine the average weekly hours of irregular or occasional
                    overtime, assess work requirements, and set the proper rate of premium pay
                    based on the Department’s Pay Handbook, and determine if payment for AUO
                    is cost-effective compared to payment for regular overtime. (Economic
                    Development Audits Division)

                    In Brief
                            An employee in the Office of Administration received a letter of
                    reprimand and was ordered to attend supplemental ethics training after an OIG
                    investigation disclosed that he had cashed numerous personal checks with a
                    contractor while serving as contracting officer’s technical representative on
                    the contract, and had used government time and equipment to conduct
                    business for a private company he owned. (Washington Field Office of
                    Investigations)

                    Processed Preaward/Postaward Contract Audits
                             The Department’s bureaus require many types of supplies and
                    services to meet their mission needs. Procurement offices must help the
                    bureaus obtain the best products or services at the best prices. To that end,
                    preaward audits are routinely requested, through the OIG, to assist the
                    contracting officer in evaluating an offeror’s proposed costs, accounting
                    system, financial capability, management ability, and technical competence.
                    These audits are usually performed by the Defense Contract Audit Agency.

                             To streamline the procurement process and meet the intent of the
                    National Performance Review, the OIG is transferring certain audit-related
                    activities to the Department’s contracting officers, allowing them to request
                    audits directly from cognizant audit offices. Eliminating this step in the
                    contract audit process will save time and increase efficiency. As a result of
                    this change, future contract audit savings will be reported by the cognizant
                    audit agency rather than this office. The change, which took effect on
                    October 1, 1997, does not modify the OIG audit authority and responsibility.




58                    Commerce IG Semiannual Report                               September 1997
                                                                          Departmental Management




        During the second half of FY 1997, 57 audit requests were received
and processed by the OIG. The requests comprised the following:

!       8 preaward audit requests with an audited value of $49,238,400.

!       23 postaward audit requests with an audited value of $10,455,373.

!       26 miscellaneous audit requests, including rate reviews and
        accounting system reviews.

        The number of processed audit reports issued total 48:

!       16 preaward audit reports cited $1,078,785 in potential funds to be
        put to better use.

!       19 postaward audit reports.

!       13 special audit reports.

         Recommendations made in three preaward contract audits were re-
solved in contract negotiations, resulting in $367,238 in funds to be put to
better use. As of September 30, 1997, one preaward contract audit issued be-
fore April 1997 had recommendations awaiting a final management decision
by the contracting officer. (Office of Compliance and Administration)

Preaward Financial Assistance Screening
         We continue to work with the Office of Executive Assistance
Management, NOAA and NIST grant offices, and EDA program offices to
screen all of the Department’s grants, cooperative agreements, and loan
guarantees before award. Our screening (1) provides information on whether
the applicant has unresolved audit findings and recommendations on earlier
awards, and (2) determines whether a name check or investigation has
revealed any negative history on individuals or organizations connected with a
proposed award.

        During this period, we screened 1,953 proposed awards. On 37 of
these awards, we found major deficiencies affecting the ability of the proposed
recipients to maintain proper control over federal funds. On the basis of
information we provided, the Department delayed the awards, inserted special
conditions in award agreements, or designated certain recipients as “high risk”
and required that the disbursement of federal funds be on a cost
reimbursement basis. (Office of Audits)

September 1997                           Commerce IG Semiannual Report                         59
Departmental Management




                                            Preaward Screening Results

                                       Results                  Number          Amount

                            Awards delayed                          7           $4,208,535

                            Special award conditions                2            1,094,434

                            Cost reimbursement basis               28           16,630,545


                    Indirect Cost Reviews
                             OMB has established a policy whereby a single federal agency is
                    responsible for the review, negotiation, and approval of indirect cost rates for
                    federal programs. Normally, the federal agency providing the most direct
                    funding is the cognizant agency. OMB has designated Commerce as the
                    cognizant agency for 280 economic development districts. In turn, the Depart-
                    ment authorized the OIG to negotiate indirect cost rates and review cost
                    allocation plans for each of its agencies. The OIG approves the methodology
                    and principles used in pooling indirect costs and establishing a common base
                    for distributing those costs to ensure that each federal, state, and local pro-
                    gram bears its fair share.

                             During this period, the OIG negotiated 39 indirect cost rate
                    agreements with nonprofit organizations and governmental agencies, and
                    reviewed and approved 24 cost allocation plans. We also provided technical
                    assistance to recipients of Commerce awards regarding the use of rates
                    established by other federal agencies and their applicability to our awards.
                    Further, we have worked closely with first time for-profit recipients of
                    Commerce awards to establish indirect cost proposals that are acceptable for
                    OIG review. (Atlanta Regional Office of Audits)

                    Nonfederal Audit Activities
                            In addition to OIG-performed audits, the Department's financial
                    assistance programs are audited by state and local government auditors and by
                    independent public accountants. OMB Circulars A-128, Audits of State and
                    Local Governments, and A-133, Audits of Institutions of Higher Education
                    and Other Non-Profit Institutions, set forth the audit requirements for most of
                    these entities. Entities that are for-profit organizations and receive ATP funds
                    from NIST are audited in accordance with Government Auditing Standards,
                    and NIST Program-Specific Audit Guidelines for ATP Cooperative
                    Agreements, issued by the Department.



60                    Commerce IG Semiannual Report                               September 1997
                                                                        Departmental Management




         During this semiannual period, we received 519 audit reports pre-
pared by nonfederal auditors. We also had 96 unprocessed reports from the
last semiannual period. For 295 of these reports, the Department is responsi-
ble for monitoring compliance with the two OMB circulars and NIST require-
ments. The other reports are from entities for which other federal agencies
have oversight responsibility. We examined 531 reports during this period to
determine whether they contained audit findings on any Department programs.

                      Report Category                Number

             Pending (March 31, 1997)                        96

             Received                                       519

             Examined                                       531

             Pending (September 30, 1997)                    84

       The following table shows a breakdown by bureau of the
$445 million in Commerce funds audited.

                    Bureau                   Funds
             EDA                                   $91,254,163
             ITA                                      4,637,172
             MBDA                                     6,003,952
             NOAA                                  171,295,066
             NTIA                                    15,774,389
             PTO                                        53,026
             TA                                      51,035,730
                  NIST                             104,922,899
             Total                               $444,976,397

         We identified a total Commerce share of $1,345,800 in questioned
costs. In most reports, the Department's programs were considered non-major,
resulting in limited transaction and compliance testing against laws, regula-
tions, and grant terms and conditions. The 19 reports with Commerce findings
are listed in Appendix B-1. (Atlanta Regional Office of Audits)




September 1997                          Commerce IG Semiannual Report                        61
                                             Reporting Requirements



                                                         INDEX
                The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
                semiannual reports. The requirements are listed below and indexed to the applicable pages.


           Section                                             Topic                                         Page

     4(a)(2)                  Review of Legislation and Regulations                                             63

     5(a)(1)                  Significant Problems, Abuses, and Deficiencies                                  18-61

     5(a)(2)                  Significant Recommendations for Corrective Action                               18-61

     5(a)(3)                  Prior Significant Recommendations Unimplemented                                   63

     5(a)(4)                  Matters Referred to Prosecutive Authorities                                     18-61

     5(a)(5) and 6(b)(2)      Information or Assistance Refused                                                 64

     5(a)(6)                  Listing of Audit Reports                                                        72-79

     5(a)(7)                  Summary of Significant Reports                                                  18-61

     5(a)(8)                  Audit Reports—Questioned Costs                                                 68, 71

     5(a)(9)                  Audit Reports—Funds to Be Put to Better Use                                    69, 70

     5(a)(10)                 Prior Audit Reports Unresolved                                                 15, 64

     5(a)(11)                 Significant Revised Management Decisions                                       16, 65

     5(a)(12)                 Significant Management Decisions with Which the OIG Disagreed                     65




62                                         Commerce IG Semiannual Report                           September 1997
                                                                                 Reporting Requirements




Section 4(a)(2): Review of Legislation
and Regulations
         This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency's
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning the
impact of such legislation or regulations on the economy and efficiency in the
administration of programs and operations administered or financed by the
agency or on the prevention and detection of fraud and abuse in those
programs and operations.

         Our comments and recommendations regarding the proposed
legislation that would establish NTIS as a government corporation are
discussed on pages 14 and 52. Other draft legislation and regulations
discussed relate to the NOAA Corps (see pages 4 and 33) and the ATP
program (see page 8).

Section 5(a)(3): Prior Significant Recommendations
Unimplemented
        This section requires an identification of each significant
recommendation described in previous semiannual reports on which corrective
action has not been completed. Section 5(b) requires that the Secretary
transmit to the Congress statistical tables for audit reports for which no final
action has been taken, plus a statement that includes an explanation of the
reasons final action has not been taken on each such audit report, except when
the management decision was made within the preceding year.

          Prior Inspector General semiannual reports have explained that to
include a list of all significant unimplemented recommendations in this report
would be duplicative, costly, unwieldy, and of limited value to the Congress.
Any list would have meaning only if explanations detailed whether adequate
progress is being made to implement each agreed-upon corrective action. Also,
as this Inspector General's semiannual report is being prepared, management
is in the process of updating the Department's Audit Tracking System as of
September 30, 1997, based on semiannual status reports due from the bureaus
in mid-October. An accurate database is therefore not available to the OIG for
reference. However, additional information on the status of any audit
recommendations may be obtained through the OIG's Office of Audits.




September 1997                            Commerce IG Semiannual Report                              63
Reporting Requirements




                     Sections 5(a)(5) and 6(b)(2): Information or
                     Assistance Refused
                              These sections require a summary of each report to the Secretary
                     when access, information, or assistance has been unreasonably refused or not
                     provided. There were no such instances during this semiannual period, and no
                     reports to the Secretary.

                     Section 5(a)(10): Prior Audit Reports Unresolved
                             This section requires a summary of each audit report issued before the
                     commencement of the reporting period for which no management decision has
                     been made by the end of the reporting period (including the date and title of
                     each such report), an explanation of the reasons such management decision
                     has not been made, and a statement concerning the desired timetable for
                     achieving a management decision on each such report.

                             As of September 30, 1997, three performance audits, three financial
                     assistance audits, one financial statements audit, and one preaward contract
                     audit were in this category, as discussed below.

                     Performance Audits

                            One unresolved report addresses the NWS Tsunami Warning
                     Program. This report is discussed on page 41. The other two reports address
                     NMFS’s vessel buyout and Northwest Emergency Assistance Plan permit
                     buyback programs. Details can be found on page 42.

                     Financial Assistance Audits

                             The unresolved audits relate to financial assistance awards made by
                     EDA, MBDA, and NOAA. Audit resolution proposals have been submitted;
                     however, the OIG and the three bureaus were not able to resolve the reports on
                     a timely basis. Additional details are presented on pages 23, 32, and 43.

                     Financial Statements Audit

                            The unresolved audit involves the Bureau of the Census Financial
                     Statements for Fiscal Year 1996. Details can be found on page 26.




64                       Commerce IG Semiannual Report                            September 1997
                                                                                Reporting Requirements




Preaward Contract Audit

          The Department’s Audit Tracking System recorded one preaward
contract audit unresolved in excess of six months. The audit, based on a
DCAA review of a contract proposal, will be resolved when the contracting
officer takes final action on the pending procurement, such as awarding a
contract or issuing a contract modification. The unresolved preaward contract
audit is listed below.

        !       ADD-8350-6-0082, August 6, 1996

Section 5(a)(11): Significant Revised
Management Decisions
         This section requires a description and explanation of the reasons for
any significant revised management decision made during the reporting period.
Department Administrative Order 213-5, Audit Resolution and Follow-up,
provides procedures for revision of a management decision. For performance
audits, the OIG must be consulted and must approve, in advance, any
modification to an audit action plan. For financial assistance audits, the OIG
must concur with any decision that would change the audit resolution proposal
in response to an appeal by the recipient.

        During the reporting period, no modifications were submitted to the
OIG for review. The decisions issued on the five appeals of audit-related debts
were finalized with the full participation and concurrence of the OIG.

Section 5(a)(12): Significant Management Decisions
with Which the OIG Disagreed
      This section requires information concerning any significant
management decision with which the Inspector General is in disagreement.

        DAO 213-5 provides procedures for the elevation of unresolved audit
recommendations to higher levels of Department and OIG management,
including an Audit Resolution Council. During this period, no audit issues
were referred to the Council.




September 1997                           Commerce IG Semiannual Report                              65
                                                            Statistical Highlights



                                Audit and Inspection
                                Statistical Highlights
 Questioned costs this period . . . . . . . . . . . . . . . . . . . . . . $8,867,591
 Value of audit recommendations this
 period that funds be put to better use . . . . . . . . . . . . . . . . $6,167,791
 Value of audit recommendations agreed
 to this period by management . . . . . . . . . . . . . . . . . . . $113,824,657
 Value of inspection recommendations this
 period that funds be put to better use . . . . . . . . . . . . . . . $95,900,000




                                    Investigative                                                                           Allegations
                                                                                                                           Processed by
                                Statistical Highlights                                                                   OIG Investigators

 Arrests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                                                                                                                                      37 Accepted for
 Indictments and informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1                                            Investigation
                                                                                                                                      40 Referred to
 Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1                                   Operating Units
                                                                                                                                      33 Evaluated But
                                                                                                                                         Not Accepted for
 Personnel actions1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5                                      Investigation or
                                                                                                                                         Referral
 Administrative actions2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                                                                                                                                     110 Total
 Fines, restitutions, judgments, and civil and
 administrative recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . $153,652                    In addition, numerous other allegations and
                                                                                                             complaints were forwarded to the appropriate
 1
  Includes suspensions, reprimands, demotions, removals, reassignments, and resignations                     federal and nonfederal investigative agencies.
 or retirements in lieu of adverse action.
 2
  Includes actions to recover funds, new procedures, and policy changes that result from                                       OIG HOTLINE
 investigations.
                                                                                                             Telephone: (202) 482-2495 or 1-800-424-5197
                                                                                                             Commerce E-mail: OIG Hotline@OI@OIG
                                                                                                             Internet: oighotline@doc.gov




66                                                       Commerce IG Semiannual Report                                                  September 1997
                            Tables and Appendixes


                                                  Tables                                                          Page
     1. Audits with Questioned Costs                                                                                68

     2. Audits with Recommendations That Funds Be Put to Better Use                                                 69

     3. Preaward Contract Audits with Recommendations That Funds Be Put to Better Use                               70

     4. Postaward Contract Audits with Questioned Costs                                                             71

                                               Appendixes

     A. Office of Inspector General Reports                                                                         72

       A-1. Performance Audits                                                                                      72

       A-2. Inspections                                                                                             73

       A-3. Financial Statements Audits                                                                             74

       A-4. Financial Assistance Audits                                                                             74

     B. Processed Reports                                                                                           77

       B-1. Processed Financial Assistance Audits                                                                   78

       B-2. Processed Contract Audits with Questioned Costs or Funds to Be Put to Better Use                        79

                                                Definitions

 The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
 provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
 expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
 or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

 The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
 Questioned costs include unsupported costs.

 The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
 be used more efficiently if Commerce management took action to implement and complete the recommendation,
 including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
 subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
 improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
 preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

 The term management decision refers to management’s evaluation of the findings and recommendations included in
 the audit report and the issuance of a final decision by management concerning its response.




September 1997                              Commerce IG Semiannual Report                                                    67
Tables and Appendixes




                                  Table 1: Audits with Questioned Costs

                                                                                       Questioned         Unsupported
                        Report Category                                 Number
                                                                                         Costs               Costs
     A. Reports for which no management decision had been
                                                                            10           $4,620,497                $832,368
        made by the commencement of the reporting period

     B. Reports issued during the reporting period                          42             8,867,591                824,853

        Total reports (A + B) requiring a management
                                                                            52           13,488,088                1,657,221
        decision during the reporting period

     C. Reports for which a management decision was made
                                                                            10             3,485,505                 50,855
        during the reporting period

        i. Value of disallowed costs                                                       1,194,866                 32,200


        ii. Value of costs not disallowed                                                  2,290,639                 18,655

     D. Reports for which no management decision had been
                                                                            42          $10,002,583            $1,606,366
        made by the end of the reporting period
        Notes and Explanations:
        In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.
        Three audit reports included in this table are also included in the reports with recommendations that funds be put
        to better use (see Table 2). However, the dollar amounts do not overlap.
        No postaward contract audits are included in this table; instead, any such audits are listed in Table 4.




68                                       Commerce IG Semiannual Report                                      September 1997
                                                                                     Tables and Appendixes




                                Table 2: Audits with Recommendations
                                   That Funds Be Put to Better Use

                              Report Category                                            Number                Value

   A. Reports for which no management decision had been made by the
                                                                                             13            $196,049,964
      commencement of the reporting period

   B. Reports issued during the reporting period                                              4                5,140,470

      Total reports (A + B) requiring a management decision during the
                                                                                             17              201,190,434
      reporting period

   C. Reports for which a management decision was made during the
                                                                                             11              154,492,615
      reporting period

      i. Value of recommendations agreed to by management                                                    112,262,553


      ii. Value of recommendations not agreed to by management                                                42,230,062

   D. Reports for which no management decision had been made by the
                                                                                               6             $46,697,819
      end of the reporting period
      Notes and Explanations:
      In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
      than the original recommendations.
      Three audit reports included in this table are also included in the reports with questioned costs (see Table 1).
      However, the dollar amounts do not overlap.
      No preaward contract audits are included in this table; instead, those audits are listed in Table 3.




September 1997                            Commerce IG Semiannual Report                                                     69
Tables and Appendixes




                              Table 3: Preaward Contract Audits with
                         Recommendations That Funds Be Put to Better Use

                                Report Category                                            Number                Value

     A. Reports for which no management decision had been made by the
                                                                                                2                 $478,090
        commencement of the reporting period

     B. Reports issued during the reporting period                                              7                 1,027,321

        Total reports (A + B) requiring a management decision during the
                                                                                                9                 1,505,411
        reporting period

     C. Reports for which a management decision was made during the
                                                                                                5                   442,952
        reporting period

        i. Value of recommendations agreed to by management                                                         367,238


        ii. Value of recommendations not agreed to by management                                                    119,991


        iii. Value of reports on proposals that were not awarded contracts                                                 --

     D. Reports for which no management decision had been made by the
                                                                                                4               $1,062,459
        end of the reporting period
        Notes and Explanations:
        Preaward audits of contracts include results of audits performed for the OIG by other agencies.
        In Category B, six reports were prepared for the OIG by the Defense Contract Audit Agency; one report was
        prepared by the Department of Health and Human Services.
        When there are multiple proposals for the same contract, we report only the proposal with the lowest dollar value
        for funds to be put to better use; however, in Category C, lines i-ii, we report the value of the awarded contract.
        In Category C, lines i-iii do not always equal the total on line C since resolution may result in values greater than
        the original recommendations.




70                                         Commerce IG Semiannual Report                                      September 1997
                                                                                      Tables and Appendixes




                                   Table 4: Postaward Contract Audits
                                         with Questioned Costs
                                                                                       Questioned         Unsupported
                       Report Category                                  Number
                                                                                         Costs               Costs
  A. Reports for which no management decision had been
                                                                                 --                 --                      --
     made by the commencement of the reporting period

  B. Reports issued during the reporting period                                  --                 --                      --

      Total reports (A + B) requiring a management decision
                                                                                 --                 --                      --
      during the reporting period

  C. Reports for which a management decision was made
                                                                                 --                 --                      --
     during the reporting period

      i. Value of disallowed costs                                                                  --                      --


      ii. Value of costs not disallowed                                                             --                      --

  D. Reports for which no management decision had been
                                                                                 --                 --                      --
     made by the end of the reporting period
      Notes and Explanations:
      In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
      than the original recommendations.




September 1997                             Commerce IG Semiannual Report                                                         71
Tables and Appendixes



                             Appendix A. Office of Inspector General Reports

                                            Type                                         Number     Appendix
       Performance Audits                                                                  5           A-1

       Inspections                                                                        10           A-2

       Financial Statements Audits                                                         1           A-3

       Financial Assistance Audits                                                        39           A-4

                                            Total                                         55




                                       Appendix A-1. Performance Audits

                                                                                                  Funds to Be
           Agency                            Subject                      Number          Date    Put to Better
                                                                                                      Use
     Economics and           2000 Decennial Census: Expanded          ESD-9610-7-0001     09/97               --
     Statistics              Targeted Questionnaire Program May Be
     Administration          Unnecessary and Counterproductive

     Patent and              Patent Quality Controls Are Inadequate   PTD-9977-7-0001     09/97               --
     Trademark Office

     Technology              Advanced Technology Program Needs        ENT-8984-7-0001     07/97               --
     Administration - NIST   Financial and Management Improvements

                             FY 1995 Superfund Charges to the         EDD-9836-7-0001     07/97               --
                             Environmental Protection Agency

                             FY 1996 Superfund Charges to the         EDD-10062-7-0001    08/97               --
                             Environmental Protection Agency




72                                          Commerce IG Semiannual Report                         September 1997
                                                                               Tables and Appendixes



                                        Appendix A-2. Inspections

                                                                                                Funds to Be
     Agency                               Subject                           Number      Date    Put to Better
                                                                                                    Use
 Bureau of Export   Export Application Screening Process Could Benefit    IPE-9524      09/97               --
 Administration     from Further Changes

 International      US&FCS Post in Malaysia                               IPE-9284      04/97               --
 Trade
 Administration     US&FCS Post in Thailand                               IPE-9286      04/97               --

                    US&FCS Poland: Effective Post Needs Attention to      IPE-9288      04/97               --
                    Certain Management Issues

                    US&FCS Post in Indonesia                              IPE-9285      05/97               --

                    US&FCS Germany: While Generally Productive, Its       IPE-9287      07/97               --
                    Priorities, Resources, and Activities Require
                    Reassessment

                    Recent Overseas Inspections Found US&FCS              IPE-9178      09/97               --
                    Delivering Services Effectively but Facing Internal
                    Constraints

 National Oceanic   The NOAA Corps Transition Plan Should Convert         NAD-9087      09/97     $16,600,000
 and Atmospheric    No More Than 170 Officers
 Administration
                    Excess Satellite Funding Indicates Need for Better    OSE-8797(2)   09/97      79,300,000
                    Financial Controls

 Office of the      Administrative Support Centers Need Functional        IPE-8569      08/97               --
 Secretary          Realignment and Focus on Essential Services




September 1997                            Commerce IG Semiannual Report                                          73
Tables and Appendixes



                                           Appendix A-3. Financial Statements Audits

           Agency                                                  Subject                                               Number                         Date
 International Trade                 USTTA Close-Out Procedures as of April 25, 1997                             FSD-8711-7-0001                        06/97
 Administration




                                           Appendix A-4. Financial Assistance Audits

                                                                                                                                                       Funds to
                                                                                                                    Ques-            Unsup-
                                                                                                                                                       Be Put to
         Agency                                  Auditee                           Number             Date          tioned           ported
                                                                                                                                                        Better
                                                                                                                    Costs            Costs
                                                                                                                                                         Use
 Economic                        Miami Downtown Development                       ATL-9297-           06/97       $1,422,846                   --       $942,651
 Development                     Authority, FL                                    7-0001
 Administration
                                 West Virginia Economic                           ATL-8969-           09/97                    --              --       3,843,380
                                 Development Authority                            7-0001

                                 Cherokee County, NC                              ATL-9614-           09/97                    --              --        111,000
                                                                                  7-0001

 Minority Business               Dodd & Associates, Ltd., TX                      DEN-9575-           04/97                    --              --               --
 Development Agency                                                               7-0001

                                 IMPACT Business Consultants,                     STL-8823-           07/97                    --              --               --
                                 Inc., OR                                         7-0001

                                 Operation of the Portland MBDC –                 STL-8823-           07/97             89,047        $88,086                   --
                                 Year One, IMPACT Business                        7-0002
                                 Consultants, Inc., OR

                                 Operation of the Salt Lake City                  STL-8823-           07/97             25,508          22,290                  --
                                 MBDC – Year One, IMPACT                          7-0003
                                 Business Consultants, Inc., OR

                                 Operation of the Seattle MBDC –                  STL-8823-           07/97             18,940          15,498                  --
                                 Year One, IMPACT Business                        7-0004
                                 Consultants, Inc., OR

                                 Operation of the Phoenix MBDC –                  STL-8823-           07/97             30,523          20,446                  --
                                 Year One, IMPACT Business                        7-0005
                                 Consultants, Inc., OR

                                 Operation of the Tucson MBDC –                   STL-8823-           07/97             28,554          25,370                  --
                                 Year One, IMPACT Business                        7-0006
                                 Consultants, Inc., OR

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.



74                                                       Commerce IG Semiannual Report                                                       September 1997
                                                                                                                Tables and Appendixes



                             Appendix A-4. Financial Assistance Audits — Continued
                                                                                                                   Ques-            Unsup-            Funds to
        Agency                                  Auditee                           Number             Date          tioned           ported            Be Put to
                                                                                                                   Costs            Costs              Better
                                                                                                                                                        Use
Minority Business               Empower Baltimore Management                     EDD-9406-           09/97             33,103          16,755                --
Development Agency              Corporation, with Council for                    7-0001
                                Economic and Business
                                Opportunity, Inc., MD

National Oceanic and            Mississippi Department of Marine                 ATL-9632-           08/97           151,985           87,644           243,439
Atmospheric                     Resources                                        7-0001
Administration
                                Ortech Engineering, Inc., TX                     ATL-9905-           08/97                    --              --             --
                                                                                 7-0001

National                        Bridgeport Futures, CT                           ATL-8844-           08/97             10,542            2,680               --
Telecommunications                                                               7-0001
and Information
Administration                  LatinoNet, CA                                    STL-8890-           08/97           118,991           65,315                --
                                                                                 7-0001

                                Massachusetts Corporation for                    ATL-9631-           09/97           113,781                  --             --
                                Educational Telecommunications                   7-0001

Technology                      Alabama Technology Network                       DEN-9490-           04/97                    --              --             --
Administration -                                                                 7-0001
NIST
                                University of Southern Mississippi               DEN-9857-           06/97                    --              --             --
                                                                                 7-0001

                                Genosys Biotechnologies, Inc., TX                DEN-9760-           06/97         1,152,465                  --             --
                                                                                 7-0001

                                Genometrix Incorporated, TX                      DEN-9758-           07/97             67,702                 --             --
                                                                                 7-0001

                                National Center for Manufacturing                DEN-9766-           07/97           109,671                  --             --
                                Sciences, MI                                     7-0001

                                Texas Instruments, Inc., TX                      DEN-9768-           07/97             92,160          40,909                --
                                                                                 7-0001

                                Aphios Corporation, MA                           DEN-9002-           08/97           108,454               416               --
                                                                                 7-0001

                                Concentra Corporation, MA                        DEN-9752-           08/97           789,817                  --             --
                                                                                 7-0001

                                Spatial Technology, Inc., CO                     DEN-9776-           08/97           934,553                  --             --
                                                                                 7-0001

Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




 September 1997                                            Commerce IG Semiannual Report                                                                      75
Tables and Appendixes



                              Appendix A-4. Financial Assistance Audits — Continued
                                                                                                                    Ques-            Unsup-            Funds to
         Agency                                  Auditee                           Number             Date          tioned           ported            Be Put to
                                                                                                                    Costs            Costs              Better
                                                                                                                                                         Use
 Technology                      Cimplex Corporation, CA                          DEN-9779-           08/97           535,488               711               --
 Administration -                                                                 7-0001
 NIST
                                 Teknowledge Corporation, CA                      DEN-9827-           08/97           526,023                  --             --
                                                                                  7-0001

                                 Cleveland Advanced                               DEN-9828-           08/97                    --              --             --
                                 Manufacturing Program, Inc., OH                  7-0001

                                 Houston Advanced Research                        DEN-8932-           09/97                    --              --             --
                                 Center, TX                                       7-0001

                                 Aronex Pharmaceuticals, Inc., TX                 DEN-9759-           09/97                    --              --             --
                                                                                  7-0001

                                 Beckman Instruments, Inc., CA                    DEN-9761-           09/97                    --              --             --
                                                                                  7-0001

                                 Massachusetts Institute of                       DEN-9762-           09/97                    --              --             --
                                 Technology/Lincoln Laboratory                    7-0001

                                 Laboratories for Genetic Services,               DEN-9763-           09/97                    --              --             --
                                 Inc., TX                                         7-0001

                                 Baylor College of Medicine, TX                   DEN-9764-           09/97                    --              --             --
                                                                                  7-0001

                                 General Motors Corporation, MI                   DEN-9765-           09/97           138,634           85,774                --
                                                                                  7-0001

                                 Ford Motor Company, MI                           DEN-9767-           09/97           114,177                  --             --
                                                                                  7-0001

                                 MacNeal-Schwendler Corporation,                  DEN-9774-           09/97           857,352                  --             --
                                 CA                                               7-0001

                                 United Technologies Corporation,                 DEN-9775-           09/97                    --              --             --
                                 CT                                               7-0001

                                 MicroFab Technologies, Inc., TX                  DEN-9777-           09/97                    --              --             --
                                                                                  7-0001

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




76                                                       Commerce IG Semiannual Report                                                       September 1997
                                                                                    Tables and Appendixes



                                      Appendix B. Processed Reports

 The Office of Inspector General reviewed and accepted 566 financial related audit reports prepared by independent
 public accountants and local, state, and other federal auditors. The reports processed with questioned costs or with
 recommendations that funds be put to better use are listed in Appendixes B-1 and B-2.

                                                                 OMB A-128            Contract Audits
                           Agency                                and A-133                                        Total
                                                                  Audits          Preaward       Postaward

 Economic Development Administration                                      178               --             --           178

 International Trade Administration                                         8               --             --             8

 Minority Business Development Agency                                      13               --             --           13

 National Oceanic and Atmospheric Administration                           45              14             12            71

 Patent and Trademark Office                                                --              2              --             2

 Technology Administration                                                 25               --              7           32

    National Institute of Standards and Technology                         78               --             --           78

 Multi-Agency                                                              78               --             --           78

 Agency Not Identified                                                    106               --             --           106

 Total                                                                    531              16             19            566




September 1997                             Commerce IG Semiannual Report                                                      77
Tables and Appendixes



                                  Appendix B-1. Processed Financial Assistance Audits

                                                                                                                   Ques-          Unsup-           Funds to
         Agency                             Auditee                            Number                 Date         tioned         ported          Be Put to
                                                                                                                   Costs          Costs           Better Use
     Economic                  Indian Development District               ATL-9999-7-0007              06/97          $9,657                 --             --
     Development               of Arizona, Inc.
     Administration
                               City of Chillicothe, MO                   ATL-9999-7-0757              06/97                 --              --             --

     International             American Electronics                      ATL-9999-7-0319              09/97        269,880         $10,650                 --
     Trade                     Association and
     Administration            Subsidiaries, CA

     National                  Bering Sea Fisherman’s                    ATL-9999-7-0274              06/97            3,209                --             --
     Oceanic and               Association, AK
     Atmospheric
     Administration            Martha’s Vineyard Shellfish               ATL-9999-7-1062              09/97          24,225                 --             --
                               Group, Inc., MA

     Technology                Semantic Designs, Inc., TX                ATL-9999-7-0592              09/97            3,958                --             --
     Administration -
     NIST                      Lennox Industries Inc., TX                ATL-9999-7-0598              09/97          79,894                 --             --

                               The Budd Company, MI                      ATL-9999-7-0749              09/97        111,025                  --             --

                               The Budd Company, MI                      ATL-9999-7-0750              09/97        112,995                  --             --

                               Extempo Systems, Inc., CA                 ATL-9999-7-0863              09/97            4,337           1,241               --

                               Concept Five Technologies,                ATL-9999-7-0868              09/97        109,354                  --             --
                               Inc., VA

                               Honeywell Technology                      ATL-9999-7-0884              09/97            4,897                --             --
                               Center, MN

                               Honeywell Technology                      ATL-9999-7-0885              09/97            5,336                --             --
                               Center, MN

                               W.R. Grace & Co., MD                      ATL-9999-7-0909              09/97        201,947                  --             --

                               The Lincoln Electric                      ATL-9999-7-0923              09/97          15,000                 --             --
                               Company, OH

                               SI Diamond Technology,                    ATL-9999-7-0924              09/97          46,999          14,040                --
                               Inc., TX

                               General Motors Corp., MI                  ATL-9999-7-0967              09/97          16,059                 --             --

                               Cullen Engineering Research               ATL-9999-7-1032              09/97        280,863         280,863                 --
                               Foundation, TX

                               Amoco Corporation, IL                     ATL-9999-7-1135              09/97          46,165          46,165                --
     Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.



78                                                      Commerce IG Semiannual Report                                                       September 1997
                                                                                                             Tables and Appendixes




                   Appendix B-2. Processed Contract Audits with Questioned Costs
                                  or Funds to Be Put to Better Use
                                                                                                     Ques-              Unsup-             Funds to
      Agency                        Number                        Type               Date           tioned              ported             Be Put to
                                                                                                     Costs              Costs             Better Use
 National                  OCA-8350-7-0019                      Preaward             05/97                      --                  --            $53,755
 Oceanic and
 Atmospheric               OCA-8350-7-0020                      Preaward             05/97                      --                  --            178,634
 Administration
                           OCA-8350-7-0021                      Preaward             05/97                      --                  --               9,243

                           OCA-8350-7-0025                      Preaward             06/97                      --                  --              53,440

                           OCA-8350-7-0026                      Preaward             06/97                      --                  --              51,464

                           OCA-8350-7-0029                      Preaward             07/97                      --                  --            191,055

                           OCA-8350-7-0030                      Preaward             08/97                      --                  --              16,075

                           OCA-8350-7-0031                      Preaward             09/97                      --                  --            525,119
 Notes: These audits were performed for the OIG by DCAA. This list contains all processed preaward contract audits with funds to be put to better use.
 However, when there are multiple proposals for the same contract, only the proposal with the lowest dollar value is reported in Table 3, page 70.




September 1997                                         Commerce IG Semiannual Report                                                                         79
                                        Definitions of OIG Reviews



                       AUDITS                                         INSPECTIONS

     The OIG conducts three types of audits:            The OIG conducts three types of inspections:

     Performance Audits                                 Operational Inspections

     These audits look at the efficiency,               These are reviews of an activity, unit, or office,
     effectiveness, and economy of the Department's     or a contractor or organization that receives
     programs, activities, and information technology   funds from the Department. They focus on an
     systems. They may check a unit's compliance        organization, not a whole program, and are
     with laws and regulations, and evaluate its        designed to give agency managers timely
     success in achieving program objectives.           information about operations, including current
                                                        and foreseeable problems.
     Financial-Related Audits
                                                        Program Evaluations
     These audits review the Department's contracts,
     grants, cooperative agreements, loans, and loan    These are in-depth reviews of specific
     guaranties. They assess compliance with laws,      management issues, policies, or programs.
     regulations, and award terms; adequacy of
     accounting systems and internal controls;          Systems Evaluations
     allowance of costs; and the degree to which a
     project achieved the intended results.             These are reviews of system development,
                                                        acquisition, operations, and policy in order to
     Financial Statements Audits                        improve efficiency and effectiveness. They
                                                        focus on Department-wide computer systems
     The Chief Financial Officers Act of 1990           and other technologies and address all project
     requires federal agencies to prepare annual        phases, including business process engineering,
     financial statements and to subject them to        system definition, system development,
     audit. The OIG is responsible for conducting       deployment, operations, and maintenance.
     these audits and reporting the results to the
     Secretary of Commerce.




80                                    Commerce IG Semiannual Report                         September 1997
                                  Glossary of Abbreviations


ASC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Administrative Support Center
ATP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Technology Program
AUO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . administratively uncontrollable overtime
AWIPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Weather Interactive Processing System
BEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Economic Analysis
BXA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Export Administration
CAMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Commerce Administrative Management System
CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Financial Officer
CIFP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Capital Improvements Facilities Program
DCAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Contract Audit Agency
EDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Development Administration
EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Environmental Protection Agency
EQP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Examination Quality Program
ESA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Economics and Statistics Administration
GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Accounting Office
ICASS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Cooperative Administrative Support Services
IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Internal Revenue Service
ISD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Inspection Services Division
ITA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . International Trade Administration
MBDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minority Business Development Agency
MEP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Manufacturing Extension Partnership
NASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Aeronautics and Space Administration
NIST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
NMFS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Marine Fisheries Service
NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration
NTIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Telecommunications and Information Administration
NTIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Technical Information Service
NWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Weather Service
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
OPM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Personnel Management
OPQR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Patent Quality Review
PAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Patent Application Management
PBO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . performance-based organization
PTO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Patent and Trademark Office
RLF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . revolving loan fund
SBIR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Small Business Innovation Research
TA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Technology Administration
TECS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Treasury Enforcement Communications System
US&FCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. and Foreign Commercial Service
USTTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Travel and Tourism Administration




September 1997                                        Commerce IG Semiannual Report                                                                      81
                                 Office of Inspector General
                                      Organization Chart


                                                                Inspector General
                        Office of Compliance
                                                                                                        Office of Counsel
                        and Administration
                                                           Deputy Inspector General



                       Office of Inspections &                                                             Office of
                        Program Evaluations                                                           Systems Evaluation




                             Office of Audits                                                   Office of Investigations


     Headquarters                Financial                   Regional                                     Financial
       Audits                Statement Audits                 Audits                                     Fraud Unit
                                                                                                      Case Resolution
                                                                                                       and Closure
      Economic               Financial Statements            Atlanta
   Develop. Audits                 Audits                Regional Office                                Investigative             Washington
                                                                                                        Operations             Field Operations
    Economics and            Financial Statements            Denver
   Statistics Audits           Contract Audits           Regional Office                                                          Silver Spring
                                                                                                                               Field Operations
     International              Financial and                Seattle
        Audits              Performance Analysis         Regional Office                                                                Denver
                                                                                                                                   Field Operations
     NOAA Audits

      PTO Audits

  Technology Audits




                                            OIG Points of Contact
Inspector General . . . . . . . . . . . . . . . (202) 482-4661               Office of Audits . . . . . . . . . . . . . . . . . . . . (202) 482-1934
Congressional Liaison . . . . . . . . . . . . (202) 482-3052                 Office of Inspections and Program Eval. . . .(202) 482-2754
Office of Compliance and Admin. . . . . (202) 482-0231                       Office of Systems Evaluation . . . . . . . . . . (202) 482-6186
Office of Counsel . . . . . . . . . . . . . . . . (202) 482-5992             Office of Investigations . . . . . . . . . . . . . . (202) 482-0934
              TDD Number . . . . . . . . . . . . . . . . . . . . .        . . . . . . . . . . . . . . . . . . . . . (202) 482-5897
              Media Inquiries . . . . . . . . . . . . . . . . . . . .     . . . . . . . . . . . . . . . . . . . . . (202) 482-5992
              Requests for Reports . . . . . . . . . . . . . . . .        . . . . . . . . . . . . . . . . . . . . . (202) 482-0231
              OIG HOTLINE:
              Telephone . . . . . . . . . . . . . . . . . . . . . . . .   . . . . . . . (202) 482-2495 or (800) 424-5197
              Commerce E-mail . . . . . . . . . . . . . . . . . .         . . . . . . . . . . . . . . . . OIG Hotline@OI@OIG
              Internet E-Mail . . . . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . . . . . . . oighotline@doc.gov

                                                    OIG Internet Home Page
                                            http://www.oig.doc.gov
